APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Summary Order in the United States
Court of Appeals for the Second Circuit
(November 5, 2020). . . . . . . . . . . . App. 1
Appendix B Memorandum and Order in the
United States District Court Southern
District of New York
(December 19, 2019) . . . . . . . . . . App. 10
Appendix C Judgment in the United States
District Court Southern District of
New York
(December 20, 2019) . . . . . . . . . . App. 45
Appendix D First Amended Complaint in the
United States District Court for the
Southern District of New York
(June 14, 2019) . . . . . . . . . . . . . . App. 47

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 20-168
SUMMARY ORDER
[Filed: November 5, 2020]
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007 IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT’S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY
CITING TO A SUMMARY ORDER MUST SERVE
A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court
of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 5th
day of November, two thousand twenty.

App. 2
Present:
JON O. NEWMAN,
ROBERT A. KATZMANN,
JOSEPH F. BIANCO,
Circuit Judges.
__________________________________________
HYUNG JIN MOON, “SEAN”,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
HAK JA HAN MOON, HOLY SPIRIT
)
ASSOCIATION FOR THE UNIFICATION )
OF WORLD CHRISTIANITY, FAMILY
)
FEDERATION FOR WORLD PEACE
)
AND UNIFICATION INTERNATIONAL, )
HYO YUL KIM, “PETER,” DOUGLAS
)
D.M. JOO, CHANG SHIK YANG,
)
KI HOON KIM, MICHAEL W. JENKINS,
)
MICHAEL BALCOMB, FARLEY JONES,
)
ALEXA WARD, JOHN DOES 1-6,
)
)
Defendants-Appellees.
)
__________________________________________)
For Plaintiff-Appellant:
AARON M. HERZIG, Taft Stettinius & Hollister
LLP, Cincinnati, OH.

App. 3
For Defendants-Appellees:
LAURA G. FERGUSON (Alan I. Horowitz, Brian A.
Hill, on the brief), Miller & Chevalier Chartered,
Washington, DC.
For Amici Curiae Hyun Jin (Preston) Moon and UCI:
William A. Burck, Derek L. Shaffer, Jan-Philip
Kernisan, Quinn Emanuel Urquhart & Sullivan,
LLP, Washington, DC; William G. Laxton, Jr.,
Jacob M. Roth, David T. Raimer, Jones Day,
Washington, DC; Henry W. Asbill, Veena
Viswanatha, Buckley LLP, Washington, DC.
Appeal from the judgment of the United States
District Court for the Southern District of New York
(Buchwald, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is MODIFIED and, as
modified, AFFIRMED.
Plaintiff-Appellant Hyung Jin Moon appeals from a
judgment of the United States District Court for the
Southern District of New York dismissing his lawsuit
for lack of subject matter jurisdiction on grounds of
ecclesiastical abstention. We assume the parties’
familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
We review an abstention decision that implicates
subject-matter jurisdiction de novo. See Hartford
Courant Co. v. Pellegrino, 380 F.3d 83, 90 (2d Cir.
2004).

App. 4
“Since at least the turn of the century, courts have
declined to interfere with ecclesiastical hierarchies,
church administration, and appointment of clergy.”
Rweyemamu v. Cote, 520 F.3d 198, 204–05 (2d Cir.
2008).1 “First Amendment values are plainly
jeopardized when church property litigation is made to
turn on the resolution by civil courts of controversies
over religious doctrine and practice. . . . [T]he
Amendment therefore commands civil courts to decide
church property disputes without resolving underlying
controversies over religious doctrine.” Presbyterian
Church in U.S. v. Mary Elizabeth Blue Hull Mem’l
Presbyterian Church, 393 U.S. 440, 449 (1969); see also
Serbian E. Orthodox Diocese for U.S. of Am. & Can. v.
Milivojevich, 426 U.S. 696, 709–10 (1976) (holding that
the principle articulated in Presbyterian Church
“applies with equal force to church disputes,” like the
present one, “over church polity and church
administration”). Indeed, “where the identity of the
governing body or bodies that exercise general
authority within a church is a matter of substantial
controversy, civil courts are not to make the inquiry
into religious law and usage that would be essential to
the resolution of the controversy.” Md. & Va. Eldership
of Churches of God v. Church of God at Sharpsburg,
Inc., 396 U.S. 367, 369–70 (1970) (Brennan, J.,
concurring).
At the same time, courts are not precluded from
resolving disputes simply because the outcome would

1

Unless otherwise indicated, in quoting cases, all internal
quotation marks, alterations, emphases, footnotes, and citations
are omitted.

App. 5
have religious implications. For instance, courts may
apply “neutral principles of law” for the resolution of
disputes involving religious matters, so long as the
“neutral principles” allow the court to avoid deciding
questions of religious doctrine, polity, and practice.
Jones v. Wolf, 443 U.S. 595, 602–04 (1979). Relying on
Jones, the plaintiff argues that the ecclesiastical
abstention doctrine does not apply because we may rely
on neutral principles of corporate, nonprofit, agency,
property, and gift law to grant him the relief sought.
Beginning with the claims for declaratory judgment,
we hold that, based on the allegations in the complaint,
there are no neutral principles by which we can
adjudicate these claims without deciding the religious
question of who the rightful successor to the late Rev.
Sun Moon is. The complaint alleges that defendantappellee Family Federation for World Peace and
Unification International (the “Family Federation”) is
a Korean entity, but its precise corporate status is
unclear. The complaint also alleges that the Family
Federation has no articles of organization or written
bylaws governing its affairs, as the Family Federation
is “governed and operated pursuant to an established
and recognized set of practices, procedures, policies and
customs,” in which the edicts and instructions by Rev.
Moon were “authoritative and required to be followed
by all Unification Church entities and organizations.”
Joint App’x 10. And both the complaint and the
plaintiff’s briefs are silent as to any Korean law that
might govern the organization of the Family Federation
in the absence of written documents. On the basis of
these allegations, we find no neutral principles of
corporate, non-profit, or agency law that would allow us

App. 6
to declare rights and obligations that concern
“matter[s] of internal church government, an issue at
the core of ecclesiastical affairs,” Milivojevich, 426 U.S.
at 721, without making a decision “on the basis of
religious doctrine or practice,” Jones, 443 U.S. at 602.
Similarly, we reject the plaintiff’s argument that we
can rely on neutral principles of property and gift law
to grant him the declaratory relief sought. The
plaintiff’s attempt to recast this case as a property
dispute is belied by the complaint, which does not
request any relief specific to certain crowns and robes
that were given to him as part of his alleged
appointment as the leader, and which vaguely refers to
other “property and assets” without identifying specific
property interests in them. Joint App’x 14, 21, 29–30.
As in Milivojevich, which incidentally involved church
property, “this case essentially involves not a church
property dispute, but a religious dispute the resolution
of which under our cases is for ecclesiastical and not
civil tribunals.” 426 U.S. at 709.2
Alternatively, the plaintiff contends that a
purported exception to the ecclesiastical abstention

2

For the first time on appeal, the plaintiff argues that the Family
Federation should be judicially estopped from arguing for
ecclesiastical abstention because it argued against the doctrine in
a different litigation. Because this argument was not properly
presented before the district court, we do not consider it here. See
Broidy Cap. Mgmt. LLC v. Benomar, 944 F.3d 436, 444 n.7 (2d Cir.
2019). Even if we were to consider it, “no action of the parties can
confer subject-matter jurisdiction upon a federal court. Thus[,] . . .
principles of estoppel do not apply.” Ins. Corp. of Ir., Ltd. v.
Compagnie des Bauxites de Guinee, 456 U.S. 694, 701–02 (1982).

App. 7
doctrine for fraud or collusion should apply. In
Milivojevich, the U.S. Supreme Court noted the
possibility of an exception for fraud or collusion “when
church tribunals act in bad faith for secular purposes.”
426 U.S. at 713. But as that phrase suggests, if the
exception exists, it would apply where a religious entity
engaged in a bad faith attempt to conceal a secular act
behind a religious smokescreen. Here, the fact that the
plaintiff has failed to articulate a secular legal right
implies that he has also failed to articulate how the
defendants may have deprived him of that right in the
guise of a religious act. While we might not owe
deference to a church’s decision whose religious nature
was a pretext for its secular purposes, we cannot
intervene here to adjudicate what remains an
essentially religious question over who the rightful
leader of the Family Federation is.
Other than the claims for defamation for a
statement made in April 2015, tortious interference,
and violation of New York’s whistleblower protection
statute, each of the remaining claims depends squarely
on the resolution of the plaintiff’s core claim that he,
not defendant-appellee Hak Ja Han Moon, is the
rightful leader of the Family Federation. Accordingly,
we lack jurisdiction to adjudicate these remaining
claims on ecclesiastical abstention grounds.
With respect to the claims for defamation for a
statement made in April 2015 and tortious
interference, we have a neutral principle to adjudicate
them: the statute of limitations. Accordingly, we affirm
the district court’s dismissal of these claims on the

App. 8
basis that they are time-barred, with the modification
that such dismissal be with prejudice.
With respect to the claim for violation of New York’s
whistleblower protection statute, contrary to the
district court’s dismissal on ecclesiastical abstention
grounds, we hold that a small subset of the allegations
in support of the claim—specifically, that the plaintiff
was “suspended from his role as the International
President of Family Federation” for exposing that the
Unification Church and Family Federation leaders
“were benefitting from excessive salaries and benefits
at the expense of the Unification Church and Family
Federation,” Joint App’x 37– 38—can be evaluated
without reference to any religious doctrine.3
Nevertheless, we affirm the district court’s dismissal on
grounds that the complaint fails to adequately allege
what law or adopted policy of the Unification Church
and Family Federation these officials violated (or, with
particularity, what fraud they have committed) in
paying themselves excessive salaries. See N.Y. Not-forProfit Corp. Law § 715-b(a); see also Fed. R. Civ. P.
9(b).4

3

To clarify, on ecclesiastical abstention grounds, we lack
jurisdiction to adjudicate the claim for violation of whistleblower
protections to the extent that it is based on the succession dispute
or other issues of religious practice—for instance, that these
officials were acting improperly by “dishonoring the directions and
teachings of Rev. Moon to curry favor with Mrs. Moon,” that the
retaliation consisted of these officials “asking him to go along with
Mrs. Moon’s exercise of authority,” and the like. Joint App’x 37.
4

We do not reach the unsettled issue of whether N.Y. Not-forProfit Corp. Law § 715-b(a) confers a private right of action.

App. 9
We have considered all of the plaintiff’s remaining
arguments and have found in them no grounds for
reversal. For the reasons above, we MODIFY the
judgment of the district court to reflect that the timebarred claims are dismissed with prejudice and all
other claims are dismissed without prejudice and
AFFIRM the judgment as modified.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe

App. 10

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
MEMORANDUM AND ORDER
19 Civ. 1705 (NRB)
[Filed: December 19, 2019]
_______________________________________
HYUNG JIN “SEAN” MOON,
)
)
Plaintiff,
)
)
- against )
)
HAK JA HAN MOON, HOLY SPIRIT
)
ASSOCIATION FOR THE
)
UNIFICATION OF WORLD
)
CHRISTIANITY, THE FAMILY
)
FEDERATION FOR WORLD
)
PEACE AND UNIFICATION
)
INTERNATIONAL, HYO YUL
)
“PETER” KIM, DOUGLAS D. M. JOO,
)
CHANG SHIK YANG, KI HOON KIM, )
MICHAEL W. JENKINS, MICHAEL
)
BALCOMB, FARLEY JONES, ALEXA
)
WARD, AND JOHN DOES 1-6.
)
)
Defendants.
)
_______________________________________)

App. 11
NAOMI REICE BUCHWALD
UNITED STATES DISTRICT JUDGE
Before the Court is a dispute over control of the
South Korea-based Unification Church and related
entities, including the Family Federation for World
Peace and Unification International (“Family
Federation”) and the Holy Spirit Association for the
Unification of World Christianity (“HSA-UWC”).1
Plaintiff Hyung Jin “Sean” Moon, the son of Unification
Church founder Reverend Sun Myung Moon (“Rev.
Moon”) and defendant Hak Ja Han Moon (“Mrs.
Moon”), brings this action to, inter alia, confirm that
he, rather than his mother, is the rightful “Leader of
Family Federation and the Unification Church as
authorized and appointed by Rev. Moon.” FAC ¶ 2.2

1

The Unification Church, which was founded in Seoul, Korea in
1954, is described in the operative complaint as a “religious
denomination that is hierarchical.” First. Am. Compl. (“FAC”) at
¶ 32. Family Federation “is the authoritative religious entity that
directs Unification Churches worldwide,” FAC ¶ 5, and HSA-UWC
(USA) is the “only embodiment of the Unification Church
recognized by the Family Federation in the United States,” FAC
¶ 29.
2

The Court notes at the outset that several of plaintiff’s filings, see
ECF Nos. 44, 71, and 91, fail to comply with the requirement of the
Local Civil Rules that “all documents must have at least one-inch
margins on all sides.” Loc. Civ. R. 11.1(b)(2). Noncompliance with
this Rule has enabled plaintiff to include more content per page
than the Local Rules permit. It should go without saying that,
absent permission from the Court to the contrary, plaintiff’s
counsel shall in all instances comply with the Local Rules of this
District.

App. 12
Before the Court are defendants’ motions to dismiss.
For the reasons that follow, those motions are granted
in their entirety.
I.

Background3

This action arises from a succession dispute that
followed the death in 2012 of Unification Church
founder Rev. Moon. Plaintiff alleges that defendants
have engaged in a variety of tortious and conspiratorial
conduct to remove plaintiff from several positions of
leadership within various Unification Church
organizations, including his positions as (1)
International President and agent of Family
Federation; (2) successor “Leader”4 of the Unification
Church and Family Federation; and (3) President of
HSA-UWC (USA).
The relevant events began in April of 2008, when
Rev. Moon appointed plaintiff to the position of
International President of Family Federation. FAC
3

The following facts are taken from the operative complaint and
the documents cited therein.
4

The complaint acknowledges that insofar as it refers to plaintiff
as the “successor Leader,” at the time plaintiff purportedly was
appointed as Rev. Moon’s successor “[t]here was not a specific
officer title reserved for this highest position of leadership in the
Family Federation and the Unification Church worldwide,” and
that “in the context of the church [plaintiff] was also referred to as
heir, king, successor, and other titles which reflected that he was
the appointed successor of Rev. Moon intended to serve as the top
Leader of the church worldwide.” FAC ¶ 49. In plaintiff’s
opposition to defendants’ motions to dismiss, plaintiff further
describes his role as “Leader” of Family Federation as “the
equivalent of a chief executive officer.” ECF No. 71 at 26.

App. 13
¶ 39. Thereafter, by way of three “coronation
ceremonies” held in January of 2009, Rev. Moon
publicly confirmed plaintiff’s appointment to the post
of “successor Leader of Family Federation and the
Unification Church worldwide.” FAC ¶ 48. Plaintiff’s
appointment as successor to Rev. Moon, which plaintiff
alleges was separate from and in addition to plaintiff’s
appointment as International President of Family
Federation, FAC ¶ 53, was further confirmed in 2010,
when Rev. Moon purportedly “prepared and signed a
written proclamation in which he appointed Sean Moon
as his rightful heir, successor and Leader of the
Unification Church worldwide,”5 FAC ¶ 52. Based on
the allegations in the complaint and the materials
annexed thereto, that proclamation is believed to state,
in relevant part:
There is only one King of Kings, who is God, only
one True Parents, throughout tens of thousands of
generations, all families are the people who share a
single lineage, and are the children of one heavenly
kingdom. They have the same blood lineage. The

5

The complaint goes on to state that “[a] true and correct copy of
[the written proclamation] as translated from Korean, is attached
as Exhibit 1.” FAC ¶ 52. Exhibit 1 to the complaint, however,
appears to be a transcript of a conversation during which Rev.
Moon drafted the purported proclamation, rather than a copy of
the proclamation itself. See FAC Ex. 2. The transcript, titled “June
5 Proclamation with Translation Added,” reflects a conversation
between Rev. Moon, Mrs. Moon, and plaintiff, who are identified
in the transcript as “Father,” “Mother,” and “Hyung Jin Nim,”
respectively. Further, while the transcript is titled “June 5
Proclamation,” the transcript indicates that the written
proclamation was signed on April 23, 2010. See FAC Ex. 1 at 2.

App. 14
Universal Peace and Unification Federation
Headquarters is the absolute and unique
Headquarters. There cannot be two Headquarters
. . . Its representative and inheritor is Hyung Jin
Moon. Anybody else is a heretic and a destroyer.
This is the proclamation of the True Parents.
FAC Ex. 1 at 2.
Plaintiff further alleges that, after Rev. Moon’s
death, defendant Mrs. Moon “coerced [plaintiff] to leave
Korea and move to the United States to serve as
President of HSA-UWC (USA).” FAC ¶ 73. Thereafter,
on February 23, 2013, the board of HSA-UWC (USA)
voted to remove Sean Moon as President of that
organization. FAC ¶ 76. Plaintiff remained
International President of Family Federation until
February of 2015, when, in “direct retaliation” for
having exposed certain misdeeds of top management of
Family Federation, FAC ¶¶ 83, 263, plaintiff
purportedly was suspended from that role. Plaintiff
maintains that, notwithstanding defendants’ attempts
to remove him from various positions of leadership
within the Unification Church, he remains Rev. Moon’s
successor and “Leader” of Family Federation because
Rev. Moon irrevocably appointed him to that role and
“[t]here is no executive, board of directors, or other
entity or individual with authority to revoke Rev.
Moon’s appointment of Sean Moon as Leader of Family
Federation and the Unification Church.” FAC ¶ 91.
Plaintiff also alleges that defendants Family
Federation and Mrs. Moon have published certain false
statements “disput[ing] [plaintiff’s] proper authority to
lead the Family Federation and Unification Church as

App. 15
the Leader.” FAC ¶ 209. While the complaint fails to
identify the specific statements that plaintiff maintains
are defamatory, plaintiff attaches as exhibits to the
complaint: (1) an April 18, 2015 letter from Family
Federation, signed by defendants Dr. Ki Hoon Kim and
Dr. Michael Balcomb,6 FAC Ex. 3; and (2) a February
22, 2018 Family Federation press release, FAC Ex. 4.
The 2015 letter states, inter alia, that “[i]n [plaintiff’s]
current state of rebellion against True Parents, Hyung
Jin Moon by his own words and actions renounced and
repudiated his position as heir and representative of
True Parents.” FAC Ex. 3 at 3. The 2015 letter goes on
to state that “because True Parents removed [plaintiff]
from his former position as International President,
Hyung Jin Moon has no official authority and position
within our movement at this time.” FAC Ex. 3 at 3. The
2018 press release states that “[s]ince the death of Rev.
Moon back in 2012, Family Federation has been led by
Mrs. Hak Ja Han Moon, the co-founder.” FAC Ex. 4 at
2. The press release concludes with Family
Federation’s mission statement: “To guide America
back to God through the teachings and Marriage
Blessing of True Parents.” FAC Ex. 4 at 3.

6

According to the FAC, defendant Dr. Ki Hoon Kim is the
Continental Director, Regional Chairman and Vice President of
Family Federation in North America, and was appointed chairman
of the HSA-UWC Board of Directors “after Sean Moon’s improper
removal.” FAC ¶ 12. Defendant Dr. Michael Balcomb is also
alleged to have been a member of the HSA-UWC (USA) Board of
Directors at the time of plaintiff’s removal, and the complaint
alleges upon information and belief that Dr. Balcomb “continues to
serve in a leadership role on behalf of Family Federation, HSAUWC (USA) and the Unification Church.” FAC ¶ 14.

App. 16
Finally, plaintiff asserts that as part of defendant
Mrs. Moon’s efforts to usurp plaintiff’s authority, Mrs.
Moon created the “Cheon II Guk Constitution,” which
established a “Supreme Council” to participate in the
selection of future heads of the Unification Church
following Mrs. Moon’s death. FAC ¶ 117. Plaintiff
claims that because he did not authorize the Cheon II
Guk Constitution or the creation of the Supreme
Council, both the Cheon II Guk Constitution and the
Supreme Council are without legal effect. FAC ¶ 119.
A. Procedural History
Plaintiff filed the initial complaint in this case on
February 22, 2019 against defendants Mrs. Moon,
HSA-UWC, Family Federation, and eight individually
named defendants believed to be “senior members of
HSA-UWC and/or Family Federation.” ECF No. 1 at
¶ 65. On April 15, 2019, the defendants that had been
served filed a letter requesting a pre-motion conference
in connection with their anticipated motion to dismiss.
ECF No. 33. In response, plaintiff requested leave to
conduct discovery as to the personal jurisdiction
arguments raised by the defendants in their April 15
letter. On May 22, 2019, after this case was transferred
to the undersigned,7 the Court issued an Order
declining plaintiff’s request for jurisdictional discovery
but granting plaintiff leave to file an amended
complaint if, consistent with Rule 11, plaintiff could

7

The complaint was initially filed in the Southern District of New
York, White Plains division. The case was transferred to this Court
on May 20, 2019, following a determination that assignment to
White Plains was improper.

App. 17
assert additional allegations to cure the deficiencies
asserted in defendants’ April 15 letter. ECF No. 41.
Plaintiff thereafter filed a 275-paragraph amended
complaint asserting twelve causes of action against the
initially named defendants. Two of plaintiff’s claims
seek declaratory relief: (1) that plaintiff “is the properly
authorized and appointed successor and worldwide
Leader of the Unification Church and Family
Federation,” FAC ¶ 112 (Count I); and (2) that “the
Cheon II Guk Constitution is a legal nullity, void,
without authority, unenforceable and without effect”
and that “the Supreme Council is not properly
authorized and is without legal authority to govern the
conduct or operation of Family Federation or the
Unification Church and should be immediately
disbanded,” FAC ¶¶ 119, 120 (Count II). Plaintiff
additionally asserts causes of action for breach of
fiduciary duty (Counts III and IV); tortious interference
with business relationship (Count V); breach of agency
agreement (Count VI); breach of fiduciary duties,
unjust enrichment, and constructive trust (Count VII);
defamation (Count VIII); and civil RICO violations and
conspiracy to commit RICO violations (Counts IX and
X). Plaintiff also asserts a claim for violation of New
York’s Whistleblower Statute (Count XI), and seeks an
accounting related to HSA-UWC and Family
Federation (Count XII).
On June 28, 2019, defendants Mrs. Moon, HSAUWC, Family Federation, and Dr. Ki Hoon Kim moved
to dismiss the FAC for lack subject matter jurisdiction,
lack of personal jurisdiction as to all defendants except
HSA-UWC, and failure to state a claim. ECF No. 50.

App. 18
The Court thereafter granted leave for defendant Dr.
Michael Balcomb, for whom proof of service was filed
on July 1, 2019, to join the June 28 motion to dismiss
and to file a supplemental brief addressing issues
unique to him.8 Both motions to dismiss are presently
before the Court. Also before the Court is plaintiff’s
motion to extend the ninety-day service deadline under
Federal Rule of Civil Procedure 4(m) as to certain of
the individual defendants, and to excuse untimely
service on defendants Douglas D.M. Joo, Chang Shik
Yang, and Michael Jenkins. See ECF No. 75.
For the reasons stated herein, the Court grants
defendants’ motions to dismiss pursuant to Federal

8

As of June 28, 2019, the docket reflected that four of the eleven
named defendants -- Mrs. Moon, HSA-UWC, Family Federation
and Dr. Ki Hoon Kim -- had been served. Because the July 1, 2019
proof of service as to Dr. Balcomb reflected that he had been served
on June 27, 2019, the Court granted him leave to file a
supplemental motion to dismiss. See ECF No. 55. In addition to
moving to dismiss on the bases set forth in the June 28 motion to
dismiss, Balcomb also moved to dismiss, pursuant to Federal Rule
of Civil Procedure 12(b)(5), on the basis of untimely service.
On August 14, 2019, counsel for the served defendants
informed the Court that three of the additionally named
defendants (i.e., Douglas D.M. Joo, Chang Shik Yang, and Michael
Jenkins) had recently been served. See ECF No. 74. In the interest
of avoiding duplicative briefing, the Court stayed the case as to
those defendants pending resolution of the previously filed motions
to dismiss. See ECF No. 76. At present, the docket reflects that all
but one of the named defendants have been served.

App. 19
Rule of Civil Procedure 12(b)(1).9 Plaintiff’s motion to
extend the 90-day service deadline and to excuse the
late service upon the additionally named defendants,
is, accordingly, denied as moot.
II.

Discussion

Because the crux of plaintiff’s multi-count complaint
is his request for a declaration that he, rather than his
mother, “is the properly authorized and appointed
successor and worldwide Leader of the Unification
Church and Family Federation,” FAC ¶ 112, the Court
begins by considering whether, as defendants
maintain, the doctrine of ecclesiastical abstention bars
the Court from adjudicating that claim. After
concluding that the Court may not resolve that dispute
without running afoul of the First Amendment, the
Court considers whether any of plaintiff’s remaining
claims can be adjudicated by reference to neutral
principles of law. Because each of the remaining claims
either turns on or cannot be divorced from the issue of
whether plaintiff is entitled to the position of
“successor Leader” of the Unification Church -– a
question that this Court may not resolve without
wading impermissibly into questions of ecclesiastical
concern -- plaintiff’s remaining claims must also be
dismissed.
Indeed, notwithstanding plaintiff’s efforts to cast
this proceeding as a “classic corporate dispute”
resolvable by reference to neutral principles of law,
9

As used herein, “defendants” refers to the defendants who have
filed motions to dismiss (i.e., Mrs. Moon, HSA-UWC, Family
Federation, Dr. Ki Hoon Kim, and Dr. Michael Balcomb).

App. 20
ECF No. 71 at 2, this matter is, at bottom, the latest
chapter in a protracted controversy over who should
replace the late Rev. Moon as leader of the Unification
Church. Because this Court may not, consistent with
the First Amendment, intervene in that dispute,
plaintiff’s complaint must be dismissed in its entirety
for lack of subject matter jurisdiction.10
A. Legal Standard
“A case is properly dismissed for lack of subject
matter jurisdiction under Rule 12(b)(1) when the
district court lacks the statutory or constitutional
power to adjudicate it.” Makarova v. United States, 201
F.3d 110, 113 (2d Cir. 2000). “In defending a motion to
dismiss for lack of subject matter jurisdiction pursuant
to Federal Rule of Civil Procedure 12(b)(1), the plaintiff
bears the burden of proving the Court’s jurisdiction by
a preponderance of the evidence.” Id. While the Court
“must accept as true all material factual allegations in
the complaint,” J.S. ex rel. N.S. v. Attica Cent. Schs.,
386 F.3d 107, 110 (2d Cir. 2004), “jurisdiction must be
shown affirmatively, and that showing is not made by
drawing from the pleadings inferences favorable to the
10

Consistent with the longstanding practice of treating questions
of ecclesiastical entanglement as jurisdictional, see Watson v.
Jones, 80 U.S. 679, 733 (1871) (stating that “civil courts exercise
no jurisdiction” over a matter that is “strictly and purely
ecclesiastical in its character”), the Court analyzes defendants’
ecclesiastical abstention arguments through a Rule 12(b)(1) lens.
See also Kavanagh v. Zwilling, 12 Civ. 7062 (JMF), 997 F. Supp.
2d 241, 248 n.7 (S.D.N.Y.), aff’d, 578 F. App’x 24 (2d Cir. 2014)
(“Most district courts to consider the question [of whether the First
Amendment bars review of ecclesiastical questions] have treated
it as jurisdictional.”).

App. 21
party asserting it,” Shipping Fin. Servs. Corp. v.
Drakos, 140 F.3d 129, 131 (2d Cir. 1998). Moreover, the
Court “may consider affidavits and other materials
beyond the pleadings to resolve the jurisdictional
issue.” Attica, 386 F.3d at 110.
“Where, as here, the defendant moves for dismissal
under Rule 12(b)(1), Fed. R. Civ. P., as well as on other
grounds, the court should consider the Rule 12(b)(1)
challenge first since if it must dismiss the complaint for
lack of subject matter jurisdiction, the accompanying
defenses and objections become moot and do not need
to be determined.” Rhulen Agency, Inc. v. Ala. Ins.
Guar. Ass’n, 896 F.2d 674, 678 (2d Cir. 1990) (internal
quotation marks omitted). The Court thus begins by
considering defendants’ argument that “[t]he First
Amendment ecclesiastical abstention doctrine bars this
Court from exercising jurisdiction over a dispute about
who controls a church and its assets.” ECF No. 50 at 5.
Because the Court concludes that dismissal on that
basis is warranted, the Court does not reach
defendants’ other arguments for dismissal.
B. Ecclesiastical Abstention
Defendants’ motions to dismiss draw on a long line
of Supreme Court cases holding that the First
Amendment precludes judicial review of proceedings
that turn on issues of church administration or
religious doctrine. In 1871, the Supreme Court in
Watson v. Jones articulated as a matter of federal
common law the principle, “founded in a broad and
sound view of the relations of church and state under
our system of laws,” that civil courts are to defer to
religious authorities on “questions of [church]

App. 22
discipline, or of faith, or ecclesiastical rule, custom, or
law.” 80 U.S. 679, 727 (1871). The Supreme Court
constitutionalized the principle from Watson, which
had been decided without explicit reference to the First
Amendment, in Kedroff v. St. Nicholas Cathedral of
Russian Orthodox Church in N. Am., 344 U.S. 94, 116
(1952). Since Kedroff, the doctrine of ecclesiastical
abstention, variously referred to as the “church
autonomy doctrine,” has continued to evolve (albeit
somewhat sporadically) on a case-by-case basis.11 See,
e.g., Presbyterian Church in U.S. v. Mary Elizabeth
Blue Hull Mem’l Presbyterian Church, 393 U.S. 440,
449, 451 (1969) (reciting the principle that civil courts
may not resolve questions that would require them “to
engage in the forbidden process of interpreting and
weighing church doctrine” and citing the “hazards . . .
of implicating secular interests in matters of purely
ecclesiastical concern”); Serbian E. Orthodox Diocese
for U.S. of Am. & Canada v. Milivojevich, 426 U.S. 696,
713 (1976) (asserting “the general rule that religious
controversies are not the proper subject of civil court
inquiry”).12 Most recently, the Supreme Court in

11

While unimportant for purposes of this Memorandum and Order,
there remains some ambiguity over whether the ecclesiastical
abstention doctrine derives from the Free Exercise Clause or the
Establishment Clause. See Kavanagh, 997 F. Supp. 2d at 250.
12

While plaintiff notes correctly that “[t]he First Amendment
generally prevents courts from ruling on the truth of religious
beliefs and courts cannot interpret religious doctrine,” ECF No. 71
at 4, the case law is clear that issues pertaining to internal church
organization and governance, no less than questions of “religious
beliefs” and “religious doctrine,” id., are to be regarded as religious
matters beyond the purview of civil courts’ authority. See, e.g.,

App. 23
Hosanna-Tabor Evangelical Lutheran Church & Sch.
v. E.E.O.C. affirmed that “the authority to select and
control who will minister to the faithful--a matter
‘strictly ecclesiastical,’--is the church’s alone.” 565 U.S.
171, 195 (2012) (quoting Kedroff, 344 U.S. at 119
(1952)).13
While the ecclesiastical abstention doctrine has
evolved principally in the context of church property
disputes, the Supreme Court in Milivojevich recognized
a distinct category of cases involving religious
organizations -- those involving questions “at the core

Milivojevich, 426 U.S. at 717 (deeming it “[beyond] dispute that
questions [concerning] the composition of the church hierarchy
[are] at the core of ecclesiastical concern”); Kedroff, 344 U.S. at 116
(affirming the freedom of religious organizations “to decide for
themselves, free from state interference, matters of church
government as well as those of faith and doctrine”) (emphasis
added).
13

While Hosanna-Tabor was not a case about ecclesiastical
abstention, it addressed “the related--but distinct--‘ministerial
exception,’” Kavanagh, 997 F. Supp. 2d at 248 n.7, which “protects
religious employers from employment discrimination lawsuits
brought by their ministers.” Penn v. N.Y. Methodist Hosp., 884
F.3d 416, 418 (2d Cir. 2018). While plaintiff notes correctly that
this is not an employment discrimination lawsuit and thus that
cases concerning the ministerial exception are not directly
relevant, see ECF No. 71 at 8, Hosanna-Tabor is instructive
insofar as it articulates the rationale behind judicial noninterference in disputes over church leadership. As the Court in
Hosanna-Tabor explained, “[r]equiring a church to accept or retain
an unwanted minister, or punishing a church for failing to do so
. . . interferes with the internal governance of the church,
depriving the church of control over the selection of those who will
personify its beliefs.” 565 U.S. at 188.

App. 24
of ecclesiastical concern,” id. at 717 -- that, though they
may incidentally affect church property or other
secular matters, cannot properly be adjudicated by civil
courts.14 And while the line separating such claims
from the secular church disputes that civil courts
permissibly may adjudicate is often a blurry one, see
Kavanagh, 997 F. Supp. 2d at 252, courts have
generally concluded that intrachurch succession
disputes, such as the one at issue here, fall squarely
within the nonjusticiable category. See, e.g.,
Congregation Beth Yitzhok v. Briskman, 566 F. Supp.
555, 558 (E.D.N.Y. 1983) (dismissing the complaint for
lack of subject matter jurisdiction where resolution of
the legal issues would require the court to determine
the rightful successor to a deceased religious leader);
Maktab Tarighe Oveyssi Shah Maghsoudi, Inc. v.
Kianfar, 179 F.3d 1244, 1250 (9th Cir. 1999)(explaining
that any decision concerning the legitimacy of a
religious leader’s succession “could only be made by a
recognized decision-making body” within the religious
organization itself); Kabbalah Ctr. Int’l, Inc. v.
Youdkevitch, 2008 WL 11336117, at *6 (C.D. Cal. Oct.
30, 2008) (stating that the court could not adjudicate
the claim that defendants had falsely held out one of
the named defendants as the successor to the founder
14

Professor Larry Tribe has explained that the Supreme Court in
Serbian Eastern Orthodox Diocese v. Milivojevich “settled a
question left open by the Court’s prior decisions: whatever room
the first amendment might leave for independent civil resolution
of secular but church-related disputes . . . it leaves no room
whatever for independent civil adjudication of ‘questions . . . at the
core of ecclesiastical concern.’”). LAURENCE H. TRIBE, AMERICAN
CONSTITUTIONAL LAW 1241 (3d ed. 2000) (quoting Milivojevich, 426
U.S. at 717).

App. 25
of a religious organization because doing so “would
require the Court to apply religious doctrine or
principles”).
Nevertheless, the application of the ecclesiastical
abstention doctrine is fact-specific, and civil courts may
adjudicate secular issues that arise in the context of
church disputes “when inquiry ‘into religious law and
polity’ is not required.” Kavanagh, 997 F. Supp. 2d at
249–50 (quoting Ram v. Lal, 906 F. Supp. 2d 59, 69–70
(E.D.N.Y. 2012)). To that end, the Supreme Court has
articulated two methods -- deference to a church’s
highest decision-making authority (the “deference
approach”) and the “neutral principles of law” approach
-- by which civil courts can adjudicate church disputes
“without resolving underlying controversies over
religious doctrine.” Presbyterian Church, 393 U.S. at
449. Because the two methods provide a useful
framework for analyzing this dispute, each is
addressed in turn.
1. Deference to Ecclesiastical Authority
Under the deference approach, courts avoid
entanglement in disputes concerning internal church
governance by deferring to the decisions of the religious
organization’s established decision-making body.15

15

In accordance with this principle, courts have recognized that
the First Amendment “permit[s] hierarchical religious
organizations to establish their own rules and regulations for
internal discipline and government, and to create tribunals for
adjudicating disputes over these matters.” Milivojevich, 426 U.S.
at 724. Religious bodies, in turn, have developed institutions
capable of adjudicating intra-church disputes. See Michael A.

App. 26
While the Supreme Court in Milivojevich originally
suggested a rule of compulsory deference to the
decisions of authoritative church bodies where such
decisions had been made, see 426 U.S. at 79 (noting
that “[c]ivil courts shall not disturb the decisions of the
highest ecclesiastical tribunal within a church of
hierarchical polity”),16 the Supreme Court in Jones v.
Wolf acknowledged that compulsory deference would
prove difficult in cases where a religious organization’s
authoritative decisionmaking body could not easily be
identified. Rejecting the principle of compulsory
deference advocated by the dissenting justices, the
Jones v. Wolf majority explained that, “where the locus
of control [is] ambiguous . . . [compulsory deference]
would appear to require ‘a searching and therefore
impermissible inquiry into church polity.’” Jones, 443
U.S. at 605 (quoting Milivojevich, 426 U.S. at 723).

Helfand, Litigating Religion, 93 B.U. L. REV. 493, 498 (2013) (“In
practice, religious communities have largely filled the void left by
the judicial refusal to decide cases implicating religion by
developing institutions capable of doing so.”).
16

The Supreme Court’s ecclesiastical abstention jurisprudence has
long distinguished between churches that are “hierarchical” and
those that are “congregational” in structure. “Hierarchical”
churches are churches that have “a common ruling convocation or
ecclesiastical head.” Kedroff, 344 U.S. 94, 110 (1952).
“Congregational” churches, by contrast, “generally [do not]
recognize superior authority over the local congregation.” Arlin M.
Adams & William R. Hanlon, Jones v. Wolf: Church Autonomy and
the Religion Clauses of the First Amendment, 128 U. PA. L. REV.
1291, 1292 (1980). For present purposes, the complaint alleges,
and the Court accepts as true, that the Unification Church is
hierarchical in nature. FAC ¶ 32.

App. 27
Where, as here, there is a dispute as to the identity
of a religious organization’s authoritative decisionmaking body, the deference approach -- which requires
the Court to identify in the first instance the body to
whom it may defer -- cannot be applied without
engaging in precisely the sort of “impermissible inquiry
into church polity” that the Supreme Court anticipated
in Jones v. Wolf. Stated otherwise, “where the identity
of the governing body or bodies that exercise general
authority within a church is a matter of substantial
controversy, civil courts are not to make the inquiry
into religious law and usage that would be essential to
the resolution of the controversy.” Maryland & Virginia
Eldership of Churches of God v. Church of God at
Sharpsburg, Inc., 396 U.S. 367, 369–70 (1970). See also
Briskman, 566 F. Supp. 555 at 558 (concluding that,
because a “dispute exists as to who is entitled to
succeed the late [religious leader]. . . it is impossible for
this Court to resolve the controversy without first
wading deeply (and impermissibly) into religious
issues.”).17
In short, the deference approach presupposes that
the identity of the church’s authoritative decisionmaking body is undisputed. Because the central
question before the Court is whether plaintiff or his
17

Defendants describe Serbian Eastern Orthodox Diocese v.
Milivojevich as the “leading case” in support of their argument
that plaintiff’s claims are barred by the First Amendment
ecclesiastical abstention doctrine. ECF No. 50 at 5. In Milivojevich,
however, there was no dispute over which religious entities held
“the exclusive power to remove, suspend, defrock, or appoint
Diocesan Bishops,” 426 U.S. at 699, thus entitling the decisions of
those entities to judicial deference.

App. 28
mother is properly entitled to succeed Rev. Moon, thus
rendering the identification of the authoritative
decision-making body a matter of “substantial
controversy,” Sharpsburg, 396 U.S. at 369, the
deference principle is of limited utility in resolving this
action.18
2. Neutral Principles of Law
The alternative method for resolving secular
disputes involving religious entities, and the approach
plaintiff urges the Court to adopt, permits civil courts
to resolve disputes to the extent they are amenable to
the application of neutral principles of law. See Jones,
443 U.S. at 603 (explaining that the neutral principles
approach permits civil courts to resolve church
property disputes when they can do so by “rel[ying]
exclusively on objective, well-established concepts of
trust and property law familiar to lawyers and
judges”).
At least in the context of a church property
dispute,19 the preliminary inquiry under the neutral

18

The Court thus disagrees with defendants’ contention that
because Family Federation “has determined that Reverend Moon’s
widow, not Plaintiff Sean Moon, is the leader of the Unification
Church . . . this Court lacks jurisdiction to hold otherwise.” ECF
No. 87 at 5-6. Insofar as the parties agree that Family Federation
is the authoritative religious body within the Unification Church,
see FAC ¶ 5, they disagree over who is the legitimate leader of that
entity and thus over the identity of the proper decision-making
authority.
19

The Court assumes for purposes of this Memorandum and Order
that the neutral principles approach -- a well-established method

App. 29
principles approach is to evaluate whether church
documents (e.g., church charters or constitutions)
contain secular language that civil courts may interpret
in order to resolve the dispute on a non-theological
basis. See, e.g., id. (“Through appropriate reversionary
clauses and trust provisions, religious societies can
specify what is to happen to church property in the
event of a particular contingency, or what religious
body will determine the ownership in the event of a
schism or doctrinal controversy.”). Here, however,
plaintiff concedes that there exists neither a “charter
[n]or [any other] governing documents . . . that would
govern how or whether Sean Moon could be removed as
the Leader and successor of Rev. Moon.” FAC ¶ 87.
While plaintiff alleges that his appointment as
successor Leader is “evidenced in a written
proclamation,” FAC ¶ 2, that proclamation, discussed
supra at 3-4, turns on the meaning of plainly non-

for resolving church property disputes, see, e.g., Jones, 443 U.S. at
604 (noting that states may “adopt neutral principles of law as a
means of adjudicating a church property dispute”) (emphasis
added); Presbyterian Church, 393 U.S. at 449 (describing “neutral
principles of law, developed for use in all property disputes”)
(emphasis added) -- may also be applied to other kinds of secular
disputes involving religious entities. See, e.g., Puri v. Khalsa, 844
F.3d 1152, 1165 (9th Cir. 2017) (“Property disputes have proved
especially amenable to application of the neutral-principles
approach. But we are unaware of any authority or reason
precluding courts from deciding other types of church disputes by
application of purely secular legal rules”). Here, notwithstanding
plaintiff’s purported entitlement to certain church property -namely, the “crowns and robes which were part of the required
attire in the commencement of his duties,” FAC ¶ 160 -- plaintiff
does not characterize this proceeding as a church property dispute
(nor could he credibly do so).

App. 30
secular terms and concepts (e.g., the “one King of
Kings, who is God”), and an understanding of the
authority of the “True Parents” within the Unification
Church movement. It suffices to say that this Court
could not ascertain the meaning of those concepts -- nor
the significance of Rev. Moon’s purported admonition
that “anybody [other than plaintiff] is a heretic and a
destroyer,” FAC Ex. 1 at 2 -- by reference to ordinary
principles of contract interpretation.20
Citing a 1963 opinion of the New York Supreme
Court, Bronx County, plaintiff maintains that in the
absence of governing documents that would permit a
court to resolve a church dispute on a secular basis,
courts can still apply the neutral principles approach
by “rely[ing] on [a religious entity’s] ‘accepted and
honored custom, policies, and usage’ to determine the
rights of the parties.’” ECF No. 71 at 5 (quoting Evans
v. Criss, 240 N.Y.S. 2d 517, 520 (N.Y. Sup. Ct. 1963)).
In an apparent effort to identify a Unification Church
practice that this Court could enforce in order to affirm
plaintiff’s status as “Leader,” plaintiff asserts that
“[p]ursuant to the customs, policies and procedures of
[Family Federation], Rev. Moon had unilateral
authority to appoint and remove the heads of [Family
Federation and HSA-UWC].” ECF No. 71 at 3.

20

Nor is the Court persuaded by plaintiff’s contention that “Rev.
Moon was very intentional in making his appointment of Sean
Moon irrevocable and on neutral principles of non-profit and/or
corporate law such appointment cannot be revoked as there is no
one with authority to do so.” FAC ¶ 93. Plaintiff fails to identify
the specific principles of “corporate and/or non-profit law” that
supposedly would aid this Court in resolving his claims.

App. 31
Even if Rev. Moon’s “unilateral authority” over the
selection and removal of Unification Church leaders
could accurately be characterized as an “accepted and
honored custom,” any such custom would not aid this
Court’s evaluation of the legitimacy of plaintiff’s
removal from various church leadership positions
following Rev. Moon’s death. Insofar as Rev. Moon
founded the Unification Church and acted as its first
spiritual leader, the Unification Church has had no
prior occasion to establish an “accepted and honored
custom” for selecting its successor leaders.
Furthermore, the 1963 New York state court opinion
that plaintiff cites as authority for the proposition that
church disputes may be resolved by reference to prior
customs and practices expressly premised its reliance
on the church’s prior practices on the fact that the
church in question was congregational rather than
hierarchical in structure. The court reasoned that:
Unlike other religious denominations, there is no
central governing body in the Baptist faith. Thus,
inasmuch as there exists no superior ecclesiastical
entity vested with the power to prescribe rules by
which a Baptist church may appoint or discharge a
pastor, past and accepted customs must be relied
upon as the basis for effecting designations and
discharges.
Id. (emphasis added). As noted supra at 16 n.16, the
Unification Church is hierarchically structured (i.e., it
possesses a “central governing body” in Family
Federation). Thus, the state court’s reasoning is
factually inapplicable to this proceeding.

App. 32
In summary, whether plaintiff or his mother is the
rightful successor to Rev. Moon as leader of the
Unification Church -- a question that the case law
suggests is “at the core of ecclesiastical concern,”
Milivojevich, 426 U.S. at 717 -- simply cannot be
resolved via the deference approach or by reference to
neutral principles of law. Thus, Count I of plaintiff’s
complaint must be dismissed as barred by the First
Amendment. It follows that plaintiff’s request for a
declaration that the Cheon II Guk Constitution and the
Supreme Council are “without legal authority,” see
FAC ¶¶ 119, 120 (Count II) -- a request premised solely
upon plaintiff’s contention that he, rather than his
mother, is the true “Leader” of the Unification Church
-- must also be dismissed.
C. Plaintiff’s Remaining Claims
In an effort to characterize this proceeding as one
that this Court can adjudicate, plaintiff alleges a
variety of business torts arising from his purportedly
improper ouster as International President of Family
Federation.21 It is well-settled, however, that “[i]n cases
involving a dispute between two or more religious
factions, the Court must look beyond the allegations of
the complaint to ascertain what lies at the heart of
[the] controversy.” Kedroff, 344 U.S. at 122 (1952)
(Frankfurter, J., concurring). See also Kavanagh, 997
21

Indeed, plaintiff characterizes this proceeding as a secular
dispute concerning “whether [Rev. Moon] had authority under the
organization’s practices and procedures to appoint Sean Moon as
[Family Federation’s] agent, whether he did in fact appoint him,
and whether that agency agreement has been tortiously interfered
with and/or breached.” ECF No. 71 at 2.

App. 33
F. Supp. 2d at 250–51 (noting that, to determine
whether the First Amendment permits adjudication of
claims involving religious entities, civil courts rely not
“on conclusory labeling of the whole dispute as either
‘secular’ or ‘ecclesiastical,’ but rather on the specific
elements of the plaintiffs’ claim[s]”) (internal quotation
marks omitted).
Here, a review of plaintiff’s claims leads inescapably
to the conclusion that to resolve the allegations in the
complaint would require resolution of the threshold
question, discussed at length supra, of whether
plaintiff or defendant Mrs. Moon is the rightful
successor to Rev. Moon. And because that inquiry is
barred by the First Amendment ecclesiastical
abstention doctrine, those claims must be dismissed for
want of subject matter jurisdiction, even if those claims
would otherwise be justiciable by reference to neutral
principles. Cf. Russian Orthodox Convent NovoDiveevo, Inc. v. Sukharevskaya, 166 A.D.3d 1036, 1039
(N.Y. App. Div. 2018) (concluding that the existence of
threshold ecclesiastical issues that directly affected the
secular issues before the court prohibited the court
from resolving the secular issues “that would otherwise
have been subject to neutral principles of law”).
For the avoidance of doubt, the Court briefly
addresses plaintiff’s remaining claims.22
22

Plaintiff devotes multiple pages of his opposition to defendants’
motions to dismiss to explaining why Family Federation’s
arguments in favor of ecclesiastical abstention in this case are
“disingenuous” in light of the fact that, in an unrelated lawsuit,
Family Federation, as plaintiff, argued successfully against
dismissal on the basis of ecclesiastical abstention. See ECF No. 71

App. 34
1. Breach of Fiduciary Duty
Plaintiff alleges that “[a]t all relevant times . . .
Mrs. Moon has owed the Unification Church, Family
Federation, HSA-UWC (USA), and Sean Moon a
fiduciary duty to act in their best interests by virtue of
her public role as Rev. Moon’s wife, Sean Moon’s
mother and the role she claims as ‘True Mother’ and
her influence over the entities as a result.” FAC ¶ 123.
Plaintiff further alleges that his mother’s breach of her
purported fiduciary duties “is ongoing as she continues
to purport to be the Leader of Family Federation and
the Unification Church in direct disobedience,
disrespect and disregard of Rev. Moon’s express
appointment of Sean Moon as Leader.” FAC ¶ 129.
Even assuming that plaintiff could plausibly allege
a fiduciary relationship with his mother, any

at 4-6; Family Fed’n for World Peace v. Hyun Jin Moon, 129 A.3d
234 (D.C. Cir. 2015). If anything, that case -– which did not, as
here, require the court to resolve a church leadership dispute -- is
supportive of the conclusion that this Court lacks jurisdiction over
the claims asserted in plaintiff’s complaint. Indeed, in reversing
the trial court’s dismissal for lack of subject matter jurisdiction,
the D.C. Circuit reasoned that the suit was not “directly against a
church, synagogue, or mosque or their immediate leadership . . .
Nor does it appear that the individual defendants have a direct
religious role within the church as such, but rather are basically
operating in a secular capacity.” Id. at 249. Here, Family
Federation -- an organization whose mission statement is “[t]o
guide America back to God through the teachings and Marriage
Blessing of True Parents,” FAC Ex. 4 at 3 -- is described in the
FAC as the Unification Church’s “authoritative religious entity,” id.
at ¶ 5 (emphasis added). Further, defendants are being sued not
for actions taken in a secular capacity but for, inter alia,
facilitating “modifications of church doctrines,” FAC ¶¶ 81, 261.

App. 35
evaluation of the behavior that purportedly constitutes
the fiduciary breach -- inter alia, Mrs. Moon
“wrongfully holding herself out to be the Leader of the
Unification Church and Family Federation,” and
“misrepresenting her role, authority, and status to
members of the organizations,” FAC ¶ 126 -- would
require an inquiry into the threshold issue of whether
Mrs. Moon, rather than plaintiff, is the rightful
successor to the late Rev. Moon. The same is true with
respect to the claimed wrongdoing by the director
defendants, who allegedly breached their purported
fiduciary duties to plaintiff by, inter alia, “refus[ing] to
honor . . . Rev. Moon’s appointment of Sean Moon as
his successor Leader and agent of HSA-UWC (USA)
and all Family Federation organizations.” FAC ¶¶ 13440. Because the alleged breaches are inextricably
linked to the ecclesiastical determination of who is the
legitimate leader of the Unification Church, plaintiff’s
breach of fiduciary duty claims must be dismissed.23
23

State and federal courts have often been reluctant to adjudicate
allegations of intra-church fiduciary violations on the grounds that
doing so presumes that the secular concept of a “fiduciary” is
capable of fully capturing the nature of a fundamentally nonsecular relationship. See, e.g., Schmidt v. Bishop, 779 F. Supp. 321,
326 (S.D.N.Y. 1991) (noting the “constitutional difficulties” that
the court would encounter “in analyzing and defining the scope of
a fiduciary duty owed persons by their clergy”). But see Martinelli
v. Bridgeport Roman Catholic Diocesan Corp., 196 F.3d 409,
430–31 (2d Cir. 1999) (concluding in the context of a sexual assault
claim that a jury could find the Diocese liable for breaches of a
fiduciary duty owed to a parishioner without impermissibly
inquiring into religious issues). The Second Circuit’s reasoning in
Martinelli relied, however, upon the distinction “between
consideration of religious teachings and tenets as brute facts,
which is permissible under the First Amendment, and evaluation

App. 36
2. Tortious Interference
Plaintiff alleges tortious interference with plaintiff’s
relationship with Family Federation based upon
defendants’ “interfer[ence] with Sean Moon’s rightful
authority to act as Leader of Family Federation and
Unification Church.” FAC ¶ 169. Assuming, arguendo,
that plaintiff could plausibly allege a tortious
interference claim in this context, any such claim
would have accrued in February 2015 when plaintiff
purportedly was suspended from his role as
International President of Family Federation. FAC
¶ 263. Because plaintiff filed the initial complaint over
three years after his alleged suspension, any tortious
interference claim is time-barred. NY CPLR § 214(4).24
3. Civil RICO
Plaintiff alleges a civil RICO claim based on
defendants’ “fraudulent scheme . . . to steal control of
the Unification Church and Family Federation from
Sean Moon.” FAC ¶ 69. Assuming, arguendo, that
plaintiff could adequately plead civil RICO violations

of their validity, which is not.” Kavanagh, 997 F. Supp. 2d at 254.
Plaintiff’s breach of fiduciary claims are distinguishable from those
alleged in Martinelli because plaintiff’s claims would require
consideration of the validity of plaintiff’s status as “Leader.”
24

Plaintiff attempts to save this claim by alleging that defendants’
interference is “continuing and ongoing,” ECF No. 71 at 28
(emphasis in original). This argument is unavailing, however,
because tortious interference is not a “continuing tort.” Enzo
Biochem, Inc. v. Amersham PLC, No. 02 Civ. 8448 (RJS), 981 F.
Supp. 2d 217, 225 (S.D.N.Y. 2013) (internal quotation marks
omitted).

App. 37
under 18 U.S.C. § 1962(b) that are not time-barred, any
such violations could not be disentangled from the
threshold determination of whether plaintiff is the
“Leader” of the Unification Church. See FAC ¶ 221(c)
(“To execute their fraudulent scheme, Defendants
caused documents to be sent and delivered through the
United States mail, to followers of the Unification
Church and Family Federation falsely stating that
Sean Moon was not the Leader, each of which
constitutes a separate violation of 18 U.S.C. § 1341 and
a separate act of racketeering activity”); FAC ¶ 221(f)
(“To execute their fraudulent scheme, Defendants
caused numerous writings, signs, signals, pictures, or
sounds to be transmitted by means of wire, radio, or
television communications to followers of the
Unification Church and Family Federation falsely
stating that Sean Moon was not the Leader, each of
which constitutes a separate violation of 18 U.S.C.
§ 1343”).25 In short, plaintiff’s RICO claims turn on the
Court’s resolution of the succession dispute, since the
alleged acts of racketeering activity presume plaintiff’s
status as “Leader.”
In dismissing a RICO claim arising from a religious
succession dispute not dissimilar to the one at issue
here, the court in Congregation Beth Yitzhok v.
25

While the Court need not address whether plaintiff has
adequately pled the elements of a civil RICO claim, much less the
merits of any such claim, it regards with some skepticism
plaintiff’s attempt to cast a dispute of this nature as a RICO
violation in the first instance. Cf. Briskman, 566 F. Supp. 555, 557
(E.D.N.Y. 1983) (“The core of this litigation is an internecine
dispute between rival religious factions. If there can be a case that
should not be covered by the RICO statute, this is it.”).

App. 38
Briskman explained that “an issue of religious doctrine
must be decided before it can be determined whether
the defendants’ acts were wrongful.” 566 F. Supp. 555
at 558. “The first RICO claim, for example, alleges
misuse and conversion of Congregational funds. But if
applicable religious law authorized defendants to
expend those funds, the claim must fail. Resolution of
the other allegations in the complaint would require
similar, judicially proscribed, determinations of
religious tenets.” Id. Similarly here, because “an issue
of religious doctrine must be decided before it can be
determined whether the defendants’ acts were
wrongful,” id., plaintiff’s RICO claims must be
dismissed.
4. Breach of Agency Agreement
Plaintiff’s claim for breach of agency agreement is
premised on the allegation that “Rev. Moon made it
clear that Sean Moon . . . exercise[d] full control and
authority over Family Federation,” FAC ¶ 176, and on
defendants’ purported “refus[al] to acknowledge Sean
Moon’s authority to act as agent for Family
Federation,” FAC ¶ 175. As with plaintiff’s other
claims, resolution of this claim turns on the validity of
Rev. Moon’s purported appointment of Sean Moon as
“successor Leader” of a religious organization, and thus
cannot permissibly be resolved in a civil forum.26
26

The application of agency principles to church disputes can raise
concerns similar to those that arise in the context of intrachurch
fiduciary claims. See, e.g., Swanson v. Roman Catholic Bishop of
Portland, 1997 ME 63, ¶ 10, 692 A.2d 441, 443 (“When a civil court
undertakes to compare the relationship between a religious
institution and its clergy with the agency relationship of the

App. 39
5. Defamation
Plaintiff asserts defamation claims on the basis of
two statements that purportedly challenge plaintiff’s
authority as granted by Rev. Moon. See FAC ¶¶ 196,
208-09. The first defamation claim, which is based on
the contents of a letter circulated in April of 2015, is
time-barred under New York’s one-year statute of
limitations. NY CPLR § 215(3). With respect to the
statements contained in the February 2018 press
release -- namely, that “[s]ince the death of Rev. Moon
back in 2012, Family Federation has been led by Mrs.
Hak Ja Han Moon, the co-founder,” FAC Ex. 4 at 2 -the Court would not be able to engage the merits of
that claim without running afoul of the First
Amendment.
“It is axiomatic, of course, that truth is an absolute
defense to a defamation claim.” Martin v. Hearst Corp.,
777 F.3d 546, 552 (2d Cir. 2015). Because the Court
may not, consistent with the First Amendment, pass
upon the truth or falsity of statements concerning
plaintiff’s or Mrs. Moon’s purported religious standing,
plaintiff’s remaining defamation claim must be
dismissed. Cf. Kavanagh, 997 F. Supp. 2d at 250
(“Where a court or jury would have to determine the
truth of the defendants’ statements . . . and, in doing
so, would examine and weigh competing views of
church doctrine, the result is entanglement in a matter

business world, secular duties are necessarily introduced into the
ecclesiastical relationship and the risk of constitutional violation
is evident.”).

App. 40
of ecclesiastical concern that is barred by the First
Amendment”) (internal quotation marks omitted).
6. Violation of New York
Whistleblower Statute

State’s

Finally, plaintiff alleges that he “function[ed] as a
whistleblower [by] exposing the improper conduct of
those claiming power within Family Federation and the
Unification Church,” FAC ¶ 82, including that they
were “dishonoring the directions and teachings of Rev.
Moon to curry favor with Mrs. Moon and preserve their
resulting political power and compensation,” FAC
¶ 260. Because defendants purportedly suspended
plaintiff from his role as International President of
Family Federation “[i]n direct retaliation” for exposing
such conduct, plaintiff asserts a violation of N.Y. Notfor-Profit Corp. Law (“NPCL”) § 715-b(a), which
requires certain corporations to “adopt . . . a
whistleblower policy to protect from retaliation persons
who report suspected improper conduct.” NPCL § 715b(a).
It is unclear that there even exists a private right of
action under NPCL § 715-b(a). See Joshi v. Trustees of
Columbia Univ. in City of New York, No. 17 Civ. 4112
(JGK), 2018 WL 2417846, at *10 (S.D.N.Y. May 29,
2018) (noting that “Section 715-b does not contain an
express private right of action for employees of not-forprofit corporations who report suspected improper
conduct and are the subject of retaliation” and that
“[t]here is disagreement within the New York State
Supreme Court over whether Section 715-b implicitly
provides a private right of action”). Assuming,
arguendo, that an implied private right of action exists

App. 41
under Section 715-b for non-profit employees and that
plaintiff would have standing to assert such a claim,27
both the purported “misdeeds of top management
members” (i.e., “dishonoring the directions and
teachings of Rev. Moon,” FAC ¶ 260) and defendants’
allegedly retaliatory actions (i.e., suspending plaintiff
from his position within Family Federation and
“intimidat[ing] [plaintiff] by asking him to go along
with Mrs. Moon’s exercise of authority in violation of
Rev. Moon’s appointment,” FAC ¶ 261) -- turn once
again on the threshold premise that plaintiff, rather
than his mother, is the rightful leader of Family
Federation.
D. The “Fraud or Collusion” Exception
Plaintiff maintains that even if the doctrine of
ecclesiastical abstention would otherwise preclude this
court from exercising subject matter jurisdiction, his
claims are susceptible to judicial review under the socalled “fraud or collusion” exception to the general rule
of judicial non-interference in ecclesiastical matters.

27

At least for purposes of defendants’ alleged violations of NPCL
§ 715-b(a), plaintiff maintains that in addition to serving as a
Director of HSA-UWC (USA) and “Leader” of both Family
Federation and HSA-UWC, he also was an employee of both HSAUWC (USA) and Family Federation. FAC ¶ 259.
Somewhat at odds with plaintiff’s purported entitlement to
whistleblower protections is plaintiff’s contention that, in response
to the improper conduct of certain (unidentified) Unification
Church leaders, plaintiff “asserted and threatened to exercise his
power as Leader to remove any management members who failed
to conduct themselves lawfully under the church’s practices,
procedures and policies.” FAC ¶ 262.

App. 42
See ECF No. 71 at 7-8. Though the precise contours of
the “fraud or collusion” exception are unclear,28 the
Supreme Court in Milivojevich provided for the
possibility of “marginal civil court review [of church
disputes] under the narrow rubrics of ‘fraud’ or
‘collusion’ when church tribunals act in bad faith for
secular purposes.” 426 U.S. at 713 (emphasis added).
Here, any allegations of fraud pertain not to secular
activities but to defendants’ purported efforts to, inter
alia, remove plaintiff from his position as “Leader” of
the Unification Church and related religious entities.
To the extent the “narrow exception” that plaintiff
invokes exists in the first instance, it would only apply
where, unlike here, “no ecclesiastical determinations
are necessary.” Ram v. Lal, 906 F. Supp. 2d 59, 70
(E.D.N.Y. 2012).
*

*

*

In dismissing plaintiff’s complaint, the Court is not
unmindful of the concern, reflected in the case law and
academic literature, that deeming cases nonjusticiable
on the basis of ecclesiastical abstention will in certain
instances leave aggrieved parties without a forum for
the adjudication of their claims. See, e.g., Congregation
Yetev Lev D’Satmar, Inc. v. Kahana, 879 N.E.2d 1282,
1286 (N.Y. 2007) (Smith, J., dissenting) (describing the
majority’s determination that the case was
nonjusticiable on the basis of ecclesiastical abstention

28

Plaintiff fails to cite (and this Court has been unable to identify)
a single case applying the “fraud or collusion” exception as the
basis for civil court intervention in an otherwise nonjusticiable
church controversy.

App. 43
as “a drastic measure, because when a case is
nonjusticiable it means the wrong committed, if there
is one, cannot be remedied anywhere.”). The interests
of aggrieved parties in obtaining civil court
adjudication of their claims must nevertheless be
balanced against the strong First Amendment interests
favoring judicial non-intervention in matters of
ecclesiastical concern. Particularly where, as here,
adjudication would impliedly endorse a litigant’s efforts
-- using the guise of the neutral principles approach -to invoke a civil court’s assistance in resolving a
dispute that is essentially religious in character, that
balance tilts strongly in favor of judicial nonintervention.
Perhaps most problematically, resolving plaintiff’s
claims would require a ruling in favor of the views of
one faction of a religious organization over those of
another on an issue “at the core of ecclesiastical
concern,” Milivojevich, 426 U.S. at 717. Because “[t]he
First Amendment serves to prevent exactly this sort of
picking of winners in ecclesiastical matters,”
Kavanagh, 997 F. Supp. 2d at 254, this action must be,
and is, dismissed.
III.

Conclusion

Having concluded that the ecclesiastical abstention
doctrine bars review of the claims in this case,
defendants’ motions to dismiss are granted. Plaintiff’s
motion to extend the 90-day service deadline and
excuse late service pursuant to Federal Rule of Civil
Procedure 4(m) is denied as moot, and the Clerk of
Court is respectfully requested to terminate all pending
motions.

App. 44
Dated:

New York, New York
December 19, 2019
/s/ Naomi Reice Buchwald
NAOMI REICE BUCHWALD
UNITED STATES DISTRICT JUDGE

App. 45

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 CIVIL 1705 (NRB)
[Filed: December 20, 2019]
_____________________________________________
HYUNG JIN “SEAN” MOON,
)
)
Plaintiff,
)
)
-against)
)
HAK JA HAN MOON, HOLY SPIRIT
)
ASSOCIATION FOR THE UNIFICATION
)
OF WORLD CHRISTIANITY, THE
)
FAMILY FEDERATION FOR WORLD
)
PEACE AND UNIFICATION
)
INTERNATIONAL, HYO YUL “PETER”
)
KIM, DOUGLAS D. M. JOO, CHANG SHIK
)
YANG, KI HOON KIM, MICHAEL W.
)
JENKINS, MICHAEL BALCOMB, FARLEY
)
JONES, ALEXA WARD, AND
)
JOHN DOES 1-6.
)
Defendants.
)
_____________________________________________)
JUDGMENT
It is hereby ORDERED, ADJUDGED AND
DECREED: That for the reasons stated in the Court’s

App. 46
Memorandum and Order dated December 19, 2019,
having concluded that the ecclesiastical abstention
doctrine bars review of the claims this case, defendants’
motions to dismiss are granted; Plaintiffs motion to
extend the 90-day service deadline and excuse late
service pursuant to Federal Rules Civil Procedure 4(m)
is denied as moot.
Dated:

New York, New York
December 20, 2019
RUBY J. KRAJICK
_________________________
Clerk of Court

BY: /s/_________________________
Deputy Clerk
THIS DOCUMENT WAS ENTERED
ON THE DOCKET ON 12/20/2019

App. 47

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK
CIVIL ACTION LAW
CASE NO. 7:19-cv-01705-NRB
[Filed: June 14, 2019]
_____________________________________________
HYUNG JIN “SEAN” MOON,
)
)
Plaintiff,
)
)
v.
)
)
HAK JA HAN MOON, HOLY SPIRIT
)
ASSOCIATION FOR THE UNIFICATION
)
OF WORLD CHRISTIANITY, THE
)
FAMILY FEDERATION FOR WORLD
)
PEACE AND UNIFICATION
)
INTERNATIONAL, HYO YUL “PETER”
)
KIM, DOUGLAS D. M. JOO, CHANG SHIK
)
YANG, KI HOON KIM, MICHAEL W.
)
JENKINS, MICHAEL BALCOMB, FARLEY
)
JONES, ALEXA WARD, JOHN DOES 1-6,
)
)
Defendants.
)
_____________________________________________)
JUDGE NAOMI REICE BUCHWALD

App. 48
FIRST AMENDED COMPLAINT
(JURY TRIAL DEMANDED)
Plaintiff, Hyung Jin “Sean” Moon, for his First
Amended Complaint1 against Defendants Hak Ja Han
Moon, Holy Spirit Association for the Unification of
World Christianity, The Family Federation for World
Peace and Unification International, Hyo Yul Peter
Kim, Douglas D. M. Joo, Chang Shik Yang, Ki Hoon
Kim, Michael Jenkins, Michael Balcomb, Farley Jones
and Alexa Ward (collectively, “Defendants”) alleges as
follows:
SUMMARY
1.
Reverend Sun Myung Moon (“Rev. Moon”)
founded and, until his death, was the undisputed
leader, chief executive, and agent (“Leader”) of the
Unification Church and all related entities including
The Family Federation for World Peace and Unification
International (“Family Federation”). As the Leader of
Family Federation, Rev. Moon had undisputed
unilateral authority to appoint and remove the heads
of all Unification Church denomination churches and
organizations, and to appoint his successor Leader.

1

Sean Moon files this Amended Complaint pursuant to the Court’s
Order entered on May 23, 2019. The Amended Complaint was filed
on the deadline set in such Order of June 6, 2019. However, due to
an inadvertent administrative error in filing, the Amended
Complaint was not accepted by the Clerk’s Office. Counsel to all
defendants who have appeared has consented to the Amended
Complaint being filed on or before June 12, 2019. A copy of
opposing counsel’s written consent is attached as Exhibit A hereto.

App. 49
2.
In January, 2009, Rev. Moon asserted his
authority and appointed his son, Plaintiff Hyung Jin
“Sean” Moon, as his successor and Leader of Family
Federation and the Unification Church. Rev. Moon’s
appointment of Sean Moon as successor Leader of the
Unification Church, made by way of multiple public
coronation ceremonies and evidenced in a written
proclamation, was witnessed, recognized and accepted
by Family Federation and the Unification Churches
and members, including most importantly, by
defendant Hak Ja Han Moon (“Mrs. Moon”) and her
co-conspirators. However, after Rev. Moon’s death,
Mrs. Moon and her co-conspirators orchestrated a
malicious and illegal scheme to seize control of these
organizations, to strip Sean Moon of his proper
authority as Leader of Family Federation and the
Unification Church, and to deprive Sean Moon of
property and benefits he is entitled to as Leader.
Because Mrs. Moon and her co-conspirators lacked
authority to remove Sean Moon, he brings this action
seeking a declaration of this Court, and related claims,
to confirm his legal status as Leader of Family
Federation and the Unification Church as authorized
and appointed by Rev. Moon.
PARTIES
3.
Plaintiff Hyung Jin “Sean” Moon (“Sean
Moon”), is an individual who currently resides in the
state of Pennsylvania. Sean Moon is the son of the
Reverend Sun Myung Moon and Defendant Hak Ja
Han Moon. Sean Moon was appointed by Rev. Moon to
be the Leader of Family Federation and the Unification
Church in multiple formal coronation ceremonies,
including a ceremony in New York, New York on

App. 50
January 31, 2009, which was attended by multiple
defendants herein. Sean Moon lived at the property in
Westchester, New York owned by HSA-UWC
(USA)(defined below), while serving as Family
Federation’s International President and agent, as
President of HSA-UWC (USA), and as Leader of Family
Federation and the Unification Church.
4.
Defendant Holy Spirit Association for the
Unification of World Christianity (“HSA-UWC (USA)”),
is a California not-for-profit corporation, organized
under the laws of California having an address and
principal place of business at 481 Eighth Avenue, New
York, New York, 10001. HSA-UWC (USA) transacts
business in and owns real property located in the state
of New York.
5.
Defendant Family Federation is the
authoritative religious entity that directs Unification
Churches worldwide.
6.
Family Federation is a Korean entity with a
principal place of business at 324-275 Misari-ro,
Seorak-myeon, Gapyeong-gun, Gyeonggi-do Republic of
Korea 12461. The entity was known as HSA-UWC
(Korea) from 1954 to 1997. Family Federation
ultimately controls the operations and leadership of
HSA-UWC (USA) including through its activities at its
principal place of business in New York, New York and
engages in international commerce with the United
States. Family Federation is registered with the New
York Division of Corporations as a foreign not-for-profit
corporation in New York. According to the prior
testimony of Mrs. Moon, The New Yorker Hotel, located
in New York, New York, is the international

App. 51
headquarters of Family Federation and the Unification
Church. Mrs. Moon also exercises complete control over
Family Federation and its appointed leaders, including
acting on its behalf and directing its activities in the
United States and in the state of New York. Family
Federation solicits donations, derives substantial
revenue and transacts business in the state of New
York and throughout the United States using the mails
and electronic communications through proclamations
and instructions issued to Unification Church
organizations in New York and throughout the United
States via letters, memorandum, email and internet
communications with entities and individuals. Family
Federation, under Mrs. Moon’s control, engaged in
tortious conduct which harmed Sean Moon in New
York. Family Federation also continues to issue press
releases published in New York which are defamatory
and constitute tortious acts within the state of New
York. Finally, Family Federation has engaged in mail
fraud, wire fraud and laundering of monetary
instruments in New York and throughout the United
States.
7.
Defendant Mrs. Moon, is a Korean citizen
who has a residence in Korea at 324-275, Misari-ro,
Seorak-meyon, Gapyeong-gun, Gyeonggi-do, 12461,
Republic of Korea and also regularly lives in the United
States at a residence in the state of New York located
at 50 East Sunnyside Lane, Irvington, NY 10533. Mrs.
Moon resided full time at this residence in New York
during the time period commencing in 1972 and, upon
information and belief, until at least 2012. Mrs. Moon
currently holds a U.S. permanent residence card,
commonly referred to as a “green card.”

App. 52
8.
Mrs. Moon is exercising purported authority
as managing agent over HSA-UWC (USA) in New
York, New York, including tortious acts and omissions
which have harmed Sean Moon both inside and outside
of the state of New York. As the individual who
controls this New York entity in all regards, including
with regard to the claims asserted here, Mrs. Moon was
acting in New York with regard to these claims.
Through her regular activities in the state of New
York, including appearing at conventions and speaking
engagements on a regular basis including as recently
as November, 2018, Mrs. Moon has generated
substantial revenue in the state of New York.
Additionally, Mrs. Moon renders services for
HSA-UWC (USA) from its principal place of business in
New York, New York. Mrs. Moon should have expected
or reasonably expected her activities related to the
Family Federation (as defined below) and the
operations of HSA-UWC (USA), including her improper
and tortious acts with regard to Sean Moon, to have
consequences in New York. At Mrs. Moon’s insistence,
Sean Moon was living in Westchester, New York when
Mrs. Moon engaged in tortious and conspiratorial
conduct to remove him from leadership positions,
causing harm from such conduct in New York. Mrs.
Moon improperly exercised her authority over Sean
Moon through HSA-UWC (USA) while he was living in
the United States, including in the state of New York
during certain relevant time periods. These activities
related to Family Federation and the operations of
HSA-UWC (USA) generate substantial revenue from
interstate and/or international commerce. Mrs. Moon
also has exercised her purported authority throughout
the United States to further her tortious and

App. 53
conspiratorial acts which form the basis of the claims
asserted herein. Finally, personal jurisdiction over Mrs.
Moon is also supported by additional facts to which she
testified which are currently designated as confidential
and/or Attorneys’ Eyes Only, despite challenges to such
designation.
9.
Defendant Hyo Yul “Peter” Kim (“Peter Kim”)
is an individual who does not reside in the state of
Pennsylvania. Peter Kim is a naturalized U.S. citizen
and upon information and belief currently holds
citizenship in the United States and/or Korea. Peter
Kim lived in the state of New York with the Moon
family from approximately 1972 to 2012. In 2014, Peter
Kim was appointed as a member of the unauthorized
rogue “Supreme Council,” which is a committee
assembled by Mrs. Moon after Rev. Moon’s death
without proper corporate authority. Upon information
and belief, Peter Kim regularly visits and derives
income from activities in the state of New York in
connection with his work with the Family Federation
and Unification Church.
10.
Defendant Douglas D.M. Joo (“Douglas Joo”)
is an individual who is a citizen of the United States
and upon information and belief he resides in the state
of Maryland. Upon information and belief, Douglas Joo
regularly visits and derives income from activities in
the state of New York in connection with his work with
the Family Federation and Unification Church.
11.
Defendant Chang Shik Yang (“Chang Yang”)
is an individual who is a citizen of the Republic of
Korea and upon information and belief is not a resident
of the state of Pennsylvania. Mr. Yang is a former

App. 54
president of Family Federation Korea and the former
Continental Director for Family Federation in North
America. Upon information and belief, Chang Yang
regularly visits and derives income from activities in
the state of New York and throughout the United
States in connection with his work with the Family
Federation and Unification Church.
12.
Defendant Dr. Ki Hoon Kim (“Ki Hoon Kim”)
is the current Continental Director and Regional
Chairman for Family Federation in North America. Ki
Hoon Kim is also a Vice President of Family
Federation. Dr. Ki Hoon Kim is an individual who is a
citizen of the United States residing in the state of
Illinois. Ki Hoon Kim was appointed chairman of the
HSA-UWC (USA) Board of Directors after Sean Moon’s
improper removal. Ki Hoon Kim has been a member of
the unauthorized rogue “Supreme Council” since
approximately 2014. Ki Hoon Kim regularly visits and
derives income from activities in the state of New York
in connection with his work with the Family
Federation and Unification Church, and with
HSA-UWC (USA), including activities at its principal
place of business in New York, New York. Moreover, at
Mrs. Moon’s insistence, Sean Moon was living in
Westchester, New York when Ki Hoon Kim engaged in
tortious and conspiratorial conduct to remove him from
leadership positions, causing harm from such conduct
in New York. In fact, Ki Hoon Kim met with
individuals in Westchester, New York to attempt to
persuade Sean Moon to step down from his leadership
positions as part of the tortious and conspiratorial
conduct which forms the basis for the claims asserted
herein. Finally, personal jurisdiction over Ki Hoon Kim

App. 55
is also supported by additional facts to which he
testified which are currently designated as confidential
and/or Attorneys’ Eyes Only despite challenges to such
designation.
13.
Defendant Michael W. Jenkins (“Jenkins”)
was a member of the HSA-UWC (USA) Board of
Directors when Sean Moon was removed as President
of HSA-UWC (USA) and upon information and belief
continues to serve in a leadership role on behalf of
Family Federation, HSA-UWC (USA) and the
Unification Church. Jenkins is an individual who is a
citizen of the United States and, upon information and
belief, Jenkins resides at 10016 Cypress Branch Lane,
Manassas, Virginia 20110-2722. Upon information and
belief, Jenkins regularly visits and derives income from
activities in the state of New York in connection with
his work with the Family Federation and Unification
Church.
14.
Defendant Michael Balcomb (“Balcomb”) was
a member of the HSA-UWC (USA) Board of Directors
when Sean Moon was removed as President of
HSA-UWC (USA) and upon information and belief
continues to serve in a leadership role on behalf of
Family Federation, HSA-UWC (USA) and the
Unification Church. Balcomb is an individual who is a
citizen of the United States and, upon information and
belief, Balcomb is a resident of the state of New York.
Upon information and belief, Balcomb derives income
from activities in the state of New York in connection
with his work with the Family Federation and
Unification Church.

App. 56
15.
Defendant Farley Jones (“Jones”) was a
member of the HSA-UWC (USA) Board of Directors
when Sean Moon was removed as President of
HSA-UWC (USA) and upon information and belief
continues to serve in a leadership role on behalf of
Family Federation, HSA-UWC (USA) and the
Unification Church. Additionally, Jones was appointed
by Mrs. Moon and currently serves as a member of the
unauthorized rogue “Supreme Council.” Jones is an
individual who is a citizen of the United States and
resides at 89-706 Lani Kona Road, Captain Cook,
Hawaii 96704. Upon information and belief, Jones
regularly visits and derives income from activities in
the state of New York in connection with his work with
the Family Federation and Unification Church.
16.
Defendant Alexa Ward (“Ward”) was a Vice
President and Director of HSA-UWC (USA) when Sean
Moon was removed as President of HSA-UWC (USA)
and upon information and belief continues to serve in
a leadership role on behalf of Family Federation,
HSA-UWC (USA) and the Unification Church. Ward is
an individual who is a citizen of the United States and,
upon information and belief, Ward is a resident of the
state of Connecticut. Upon information and belief,
Ward regularly visits and derives income from
activities in the state of New York in connection with
her work with the Family Federation and Unification
Church.
17.
Defendant John Does 1-6 are individuals who
have not been identified that may have been involved
in these events. Upon information and belief, the John
Doe defendants do not reside in the state of
Pennsylvania. For purposes of this Complaint, any

App. 57
references to “Defendants” shall include the John Doe
defendants.
JURISDICTION AND VENUE
18.
This Court has subject matter jurisdiction to
hear this action pursuant to 28 U.S.C. § 1332(a)(1),
because there is complete diversity of citizenship of the
parties and the amount in controversy exceeds
$75,000.00.
19.
The Court also has jurisdiction over the
subject matter of this action pursuant to 28 U.S.C.
§ 1331 because the action arises under the laws of the
United States, specifically 18 U.S.C. § 1961, et seq. The
Court has pendant jurisdiction over the state law
claims pursuant to 28 U.S.C. § 1367.
20.
This Court has personal jurisdiction over the
foreign and/or out-of-state defendants pursuant to Fed.
R. Civ. P. 4 and New York’s Long Arm Statute, CVP
§ 302, because each Defendant has either:
(a) transacted business in New York, (b) committed a
tortious act in New York, and/or (c) caused injury in
New York by a tortious act or omission outside the
state of New York and (i) regularly does or solicits
business, or derives substantial revenue from goods
used or services rendered in New York, or (ii) expected
or reasonably should expected the act to have
consequences in New York and derives substantial
revenue from interstate or international commerce.
21.
Alternatively, this Court has personal
jurisdiction over any Defendant who is served with
process in this action in the state of New York
pursuant to N.Y. C.P.L.R. § 301 and Fed. R. Civ. P.

App. 58
4(e). Mrs. Moon was served by hand delivery in New
York, New York on March 25, 2019. Mrs. Moon did not
have immunity from service of process. Mrs. Moon was
in New York, New York for multiple reasons, including
to attend her compelled deposition in the closely
related action of Holy Spirit Association for the
Unification of World Christianity v. World Peace and
Unification Sanctuary, Inc., Case No. 3:18-cv-01508RDM (M.D. Pa.)(the “Trademark Action”). The
Trademark Action is a closely related case which
involves vindicating the same cluster of rights and
interests and at least limited jurisdictional discovery
was conducted in Mrs. Moon’s compelled deposition in
New York. Finally, Mrs. Moon was also in New York at
the time of service for unrelated business and social
purposes and remained in New York for longer than
necessary to simply appear at her compelled deposition.
Ki Hoon Kim was also served by hand delivery in New
York, New York on March 25, 2019. Ki Hoon Kim did
not have immunity from service of process. Ki Hoon
Kim was in New York at the time of service for
unrelated business and social purposes and remained
in New York for longer than necessary to testify at his
deposition held on different date than when he was
served. Ki Hoon Kim was not served at his deposition.
The deposition he was subpoenaed for was in the
Trademark Action which is a closely related case which
involves vindicating the same cluster of rights and
interests.
22.
Finally, this Court has personal jurisdiction
over the foreign defendants pursuant to the federal
long-arm statute of Federal Rule of Civil Procedure
4(k)(2) based on their extensive contacts with the

App. 59
United States and specifically as such contacts and
activities relate to the claims asserted herein.
23.
Venue is proper in this judicial district under
28 U.S.C. § 1391(b)(2) & (b)(3).
FACTUAL BACKGROUND
Introduction
24.
Rev. Moon founded the Unification Church in
Seoul, Korea in 1954.
25.
On May 1, 1954, Rev. Moon registered the
Unification Church in Korea under the name The Holy
Spirit Association for the Unification of World
Christianity (“HSA-UWC (Korea)”).
26.
For purposes of this Complaint, the
“Unification Church” shall include all non-profit and
for-profit organizations and churches which follow the
teachings of Rev. Moon and take direction from Family
Federation.
27.
In the late 1950s and early 1960s, the
Unification Church began to expand into the United
States under the direction of Rev. Moon.
28.
In 1961, the Unification Church was
registered in the United States as a nonprofit
corporation in California under the name The Holy
Spirit Association for the Unification of World
Christianity (“HSA-UWC (USA)”).
29.
HSA-UWC (USA) is the only embodiment of
the Unification Church recognized by the Family
Federation in the United States.

App. 60
30.
Since 1997, HSA-UWC (Korea) has been
known as the Family Federation and is the
authoritative entity that directs and controls all
Unification Churches worldwide.
31.
HSA-UWC (USA), like all Unification Church
organizations, is required to take its direction from
Family Federation and from the Leader of Family
Federation.
32.
The Unification Church is a religious
denomination that is hierarchical.
33.
Upon information and belief, although a legal
entity, Family Federation does not have any governing
Articles of Organization or written bylaws.
34.
Instead, Family Federation is governed and
operated pursuant to an established and recognized set
of practices, procedures, policies and customs.
35.
Rev. Moon was the founder and undisputed
Leader of the Family Federation and all of his edicts
and instructions were authoritative and required to be
followed by all Unification Church entities and
organizations.
36.
The heads of all churches and organizations
under the Family Federation were appointed and
removed pursuant to the unilateral authority of Rev.
Moon as Leader.
37.
All members of the Boards of Directors of all
churches and organizations under the Family
Federation were appointed or designated to serve and
subject to removal pursuant to the unilateral authority

App. 61
of Rev. Moon as Leader of the Unification Church
denomination.
38.
Pursuant to the accepted practices,
procedures, polices and customs of the Unification
Church and all entities organized under it for the time
period commencing in the 1970s, heads of any
Unification Church organizations could only be
appointed or removed at Rev. Moon’s direction. There
are multiple examples of this pattern and practice.
Sean Moon Appointed International President
of Family Federation
39.
On April 18, 2008, Sean Moon was appointed
International President of Family Federation by Rev.
Moon to manage and oversee all Unification Church
organizations.
40.
The
Family
Federation
issued
communications to the Unification Church and its
members throughout the world, including in the state
of New York, through use of mail and email
communications from Korea advising Unification
Churches and members that Sean Moon had been
appointed as International President.
41.
As the International President of Family
Federation, Sean Moon reported to and served at the
direction of Rev. Moon, because ultimate final
authority for the Unification Church worldwide resided
with Rev. Moon as its undisputed Leader.

App. 62
Sean Moon Appointed as Successor to Rev.
Moon as Worldwide Leader of Family
Federation and Unification Church
42.
After Sean Moon had served for nearly a year
as International President, Rev. Moon appointed Sean
Moon as his successor to take over as the Leader of
Family Federation and the Unification Church and to
continue Family Federation and Unification Church’s
religious work worldwide.
43.
Rev. Moon had undisputed authority to
appoint his successor.
44.
Prior to Sean Moon’s appointment as Leader
of Family Federation and Unification Church, no one
had ever been identified by Rev. Moon as the
designated individual to step into this role after Rev.
Moon’s death.
45.
From the founding of the Unification Church
until his death, as Leader, Rev. Moon had
unquestioned authority over and served as the spiritual
head of the Family Federation.
46.
As Leader, Rev. Moon served as the chief
executive of Family Federation and all Unification
Church organizations.
47.
As Leader, Rev. Moon had sole and exclusive
decision-making authority for Family Federation,
including the authority to appoint heads and board
members for, and to direct the activities of, all
Unification Church organizations.
48.
Rev. Moon publicly confirmed Sean Moon’s
appointment as successor Leader of Family Federation

App. 63
and the Unification Church worldwide at three
separate formal coronation ceremonies. These
coronation ceremonies occurred twice in Korea on
January 15 and 31, 2009, and once in New York, New
York on January 31, 2009.
49.
There was not a specific officer title reserved
for this highest position of leadership in the Family
Federation and the Unification Church worldwide.
Instead, Rev. Moon, and Sean Moon as his successor,
served in a unique capacity in that each of them was at
the head of the church serving in the highest
management, leadership, and exclusive decision`making role. For purposes of this Complaint, we refer
to Sean Moon as the successor “Leader,” but in the
context of the church he was also referred to as heir,
king, successor, and other titles which reflected that he
was the appointed successor of Rev. Moon intended to
serve as the top Leader of the church worldwide.
50.
Mrs. Moon attended all three coronation
ceremonies appointing Sean Moon as Leader of the
Unification Church and Family Federation, publicly
acquiesced to his appointment, and never challenged
him as the rightful Leader until after the death of Rev.
Moon.
51.
On February 24, 2009, Family Federation
issued notice of Sean Moon’s appointment as Leader to
all Unification Church organizations throughout the
world through use of the mail and other forms of
communication.
52.
On June 5, 2010, Rev. Moon prepared and
signed a written proclamation in which he appointed

App. 64
Sean Moon as his rightful heir, successor and Leader of
the Unification Church worldwide. A true and correct
copy of this document as translated from Korean, is
attached as Exhibit 1.
53.
Sean Moon’s appointment as Leader was
distinct from and in addition to his position as
International President of the Family Federation. Rev.
Moon’s act of writing and signing the appointment of
Sean Moon as his successor is indisputable. Mrs. Moon
was with Rev. Moon when he issued this written
appointment of Sean Moon as Leader.
54.
Mrs. Moon has testified under oath that Rev.
Moon was the Leader of the Unification Church and
Family Federation and that he had the sole authority
to sign this appointment of his successor Leader.
55. Family Federation issued a written
international proclamation as to Rev. Moon’s
declaration and appointment of Sean Moon as the
Leader of the Unification Church worldwide.
56.
Rev. Moon specifically declared Sean Moon
was the sole representative, heir and successor to lead
the Family Federation and Unification Church.
Sean Moon Appointed as Family Federation’s
Agent
57.
Rev. Moon’s written proclamation also
appointed Sean Moon as agent to act on behalf of
Family Federation and the Unification Church.
58.
Rev. Moon’s intent to appoint Sean Moon as
Family Federation’s agent had also been previously
manifested by statements made by Rev. Moon in the

App. 65
three coronation ceremonies held in 2009 in which he
declared Sean Moon to be his successor.
59.
Rev. Moon had the capacity to act on behalf
of Family Federation as principal to enter into an
agency relationship with Sean Moon.
60.
Mrs. Moon has testified under oath that Rev.
Moon had legal capacity to appoint Sean Moon as his
successor and as Leader.
61.
Sean Moon accepted Rev.
appointment as Family Federation’s agent.

Moon’s

62.
When Rev. Moon appointed Sean Moon as
Family Federation’s agent, he granted Sean Moon a
vested, present right in Family Federation’s assets for
the purpose and benefit of continuing to act on behalf
of the Unification Church as its Leader.
63.
For example, Rev. Moon gave Sean Moon and
Sean Moon’s wife the crowns which signify the
leadership position to which he was appointed. This
property has significant value and was irrevocably
granted to Sean Moon at his coronation ceremonies in
2009.
64.
In consideration for Rev. Moon’s grants of
authority and property related to his role as Leader in
2009, Sean Moon immediately began serving as Family
Federation’s agent and Rev. Moon’s successor.
65.
As Rev. Moon’s successor, Sean Moon was
authorized and expected to fill the role as Leader and
to exercise authority to the same extent as previously
exercised by Rev. Moon.

App. 66
66.
Sean Moon performed marriage blessing
ceremonies in his capacity as Family Federation’s
agent and Rev. Moon’s successor.
67.

Rev. Moon died on September 3, 2012.

68.
After his death, Rev. Moon’s appointment of
Sean Moon as Family Federation’s agent was
irrevocable.
Mrs. Moon’s Scheme to Take Control of Family
Federation after Rev. Moon’s Death
69.
After Rev. Moon’s death, Mrs. Moon
conspired with Defendants, who are senior members of
Family Federation and HSA-UWC (USA), to devise and
execute a fraudulent scheme to steal control of the
Unification Church and Family Federation from Sean
Moon, to use the money and property belonging to the
Unification Church and Family Federation for their
own personal benefit, and to deprive Sean Moon of
property and benefits he is entitled to as Leader.
70.
In 2012, shortly after Rev. Moon’s death, Mrs.
Moon conspired with the leaders of the Family
Federation to remove Sean Moon as President of the
HSA-UWC Korean entity.
71.
Mrs. Moon did not have authority to remove
Sean Moon as Korean President.
72.
Sean Moon was forced to sign resignation
documents by a Family Federation administrator. Sean
Moon signed the documents under duress – with the
understanding that his removal had no effect on his
role as successor to Rev. Moon and Leader of Family
Federation.

App. 67
73.
To further facilitate her fraudulent scheme,
Mrs. Moon coerced Sean Moon to leave Korea and move
to the United States to serve as President of HSA-UWC
(USA). The stated purpose of asking Sean Moon to go
to the United States at the time was to address a crisis
of leadership at HSA-UWC (USA). Sean Moon
continued to also serve as International President of
Family Federation and as Leader of Family Federation
and the Unification Church worldwide.
74.
Mrs. Moon and her co-conspirators
understood that they lacked authority to remove Sean
Moon as he was Rev. Moon’s appointed successor – and,
as such, he had full and ultimate authority to direct
Family Federation’s operations and make decisions
regarding its governance.
75.
Despite this knowledge, Mrs. Moon and her
co-conspirators continued their efforts to remove Sean
Moon from his positions within Family Federation.
76.
Conspiring with Mrs. Moon, on February 23,
2013, the board of HSA-UWC (USA) voted to remove
Sean Moon as President of HSA-UWC (USA).
77.
On February 24, 2013, Sean Moon wrote a
letter to Unification Church members in the United
States in which he advised that Mrs. Moon had
announced that he would be removed from his role as
President of HSA-UWC (USA). No explanation was
given for Sean Moon’s improper removal.
78.
In the letter, Sean Moon stated that he would
remain as International President of Family
Federation.

App. 68
79.
The confusing and clumsy nature of the
purported “removals” of Sean Moon demonstrate Mrs.
Moon and her co-conspirators’ lack of authority,
plotting, and commitment to undermine Sean Moon’s
proper authority.
80.
In January, 2015, Sean Moon exposed certain
misdeeds of top management members of the
Unification Church and Family Federation.
Specifically, Sean Moon disclosed that these leaders
were benefitting from excessive salaries and benefits at
the expense of the Unification Church and Family
Federation. He further asserted that these leaders
were dishonoring the directions and teachings of Rev.
Moon to curry favor with Mrs. Moon and preserve their
resulting political power and compensation.
81.
These leaders approached Sean Moon and
encouraged him to go along with Mrs. Moon’s exercise
of authority in violation of Rev. Moon’s appointment
and to facilitate her modifications of church doctrines.
They wanted Sean Moon to stay silent as to the
matters he was exposing and speaking publicly about
until Mrs. Moon’s death, with the promise that after
her death they would be able to correct any of Mrs.
Moon’s missteps.
82.
Sean Moon viewed this as an improper
request as it would require him to disobey Rev. Moon’s
directives and to betray his mother after her death. He
refused to back down and continued to function as a
whistleblower exposing the improper conduct of those
claiming power within Family Federation and the
Unification Church. He also asserted and threatened to
exercise his power as Leader to remove any members

App. 69
who failed to conduct themselves lawfully under the
church’s practices, procedures and policies.
83.
In direct retaliation, on February 26, 2015,
Sean Moon was purportedly suspended from his role as
the International President of Family Federation.
84.
Since stealing control of the Unification
Church and Family Federation from Sean Moon, Mrs.
Moon, with the assistance of Defendants, has used the
money and property belonging to the Unification
Church and Family Federation for her own personal
benefit, including taking possession, custody and
control of the crowns and religious writings of Rev.
Moon which were given to Sean Moon as Rev. Moon’s
successor Leader.
Sean Moon is Still the Rightful Leader of
Family Federation And the Unification Church
as Rev. Moon’s Successor
85.
Sean Moon has not been, and could not be,
removed as Rev. Moon’s successor and Leader of
Family Federation and the Unification Church
worldwide.
86.
Rev. Moon’s appointment of Sean Moon to
this position was authorized, irrevocable, and
acknowledged and acquiesced to by the Family
Federation, Mrs. Moon, and her co-conspirators.
87.
Aside from the written appointment and
other writings of Rev. Moon, there are no charter or
governing documents for the Unification Church or
Family Federation that would govern how or whether

App. 70
Sean Moon could be removed as the Leader and
successor of Rev. Moon.
88.
The lack of charter and governing documents
for Family Federation and the Unification Church was
a result of the undisputed structure and long-standing
practices of the organizations that Rev. Moon had the
unlimited and sole authority to govern.
89.
All of Rev. Moon’s edicts and instructions
were authoritative and required to be followed by all
entities included within the Unification Church family
of entities. There was therefore no need for the
organization to have written charter documents as the
organization was governed exclusively by him.
90.
Rev. Moon irrevocably appointed his son Sean
Moon to succeed him as the Leader of Family
Federation and the Unification Church as evidenced by
the written appointment and the public coronations
and publications issued prior to Rev. Moon’s death.
91.
There is no executive, board of directors, or
other entity or individual with authority to revoke Rev.
Moon’s appointment of Sean Moon as Leader of Family
Federation and the Unification Church.
92.
The fact that Sean Moon has been irrevocably
appointed to be the Leader of the Unification Church
worldwide and over Family Federation is not a matter
of theology. Instead, Sean Moon was appointed to this
position irrevocably by the only individual authorized
by these entities to designate such worldwide Leader.
93.
Rev. Moon was very intentional in making his
appointment of Sean Moon irrevocable and on neutral

App. 71
principles of non-profit and/or corporate law such
appointment cannot be revoked as there is no one with
authority to do so.
Mrs. Moon’s Ultra Vires Acts
94.
Mrs. Moon purports to be the worldwide
leader of the Family Federation and the Unification
Church following Rev. Moon’s death, despite Sean
Moon’s authority as irrevocably granted by Rev. Moon.
95.
After Rev. Moon’s death, in furtherance of her
fraudulent scheme, Mrs. Moon created the “Cheon Il
Guk Constitution” which established a “Supreme
Council” to lead the Unification Church and assume
power after Mrs. Moon’s death.
96.
Prior to Rev. Moon’s death, the Unification
Church and Family Federation did not have any
constitution or any other written governing documents
other than the hierarchical practices, procedures,
polices and customs that gave all governing authority
to Rev. Moon.
97.
Mrs. Moon testified under oath that the
Cheon Il Guk Constitution she created will not go into
effect until 2020.
98.
The Cheon Il Guk Constitution does not
govern this dispute, as this constitution is not in effect.
99.
Additionally, the Cheon Il Guk Constitution
was not authorized by Sean Moon and, as such, is an
ultra vires act of Mrs. Moon and her co-conspirators to
fraudulently usurp authority from Sean Moon. As a
result, the Cheon Il Guk Constitution is a nullity and

App. 72
does not govern the activities of the Unification Church
and/or Family Federation.
100. In connection with this invalid constitution,
Mrs. Moon also created a Supreme Council to
participate in selecting future leaders of Family
Federation and the Unification Church.
101. Upon information and belief, co-conspirators
and defendants Ki Hoon Kim and Farley Jones were
appointed by Mrs. Moon to serve on this rogue
Supreme Council. These co-conspirators were selected
by Mrs. Moon to facilitate the selection of a Leader of
the church in the future other than Sean Moon.
102. The creation of this new “Supreme Council”
is evidence that no such committee or board of directors
ever existed for Family Federation or the Unification
Church.
103. Family Federation and the Unification
Church were not organized to be run by a committee or
a Supreme Council, because all authority for the
organization was vested solely in Rev. Moon prior to his
death and in his appointed successor Sean Moon after
his death.
104. Sean Moon did not authorize the creation of
the Supreme Council or the appointment of its
members and such Supreme Council is therefore an
ultra vires act of Mrs. Moon and her co-conspirators
which is a nullity.

App. 73
COUNT I – Declaratory Judgment
(28 U.S.C. § 2201)
105. Plaintiff incorporates by reference
paragraphs 1 - 104 above as if fully set forth herein.
106. A real and actual dispute, case and/or
controversy exists between the Parties as to Sean
Moon’s authority to serve as the worldwide Leader of
the Unification Church and Family Federation.
107. Rev. Moon had authority to appoint Sean
Moon as his successor and the Leader of the
Unification Church and Family Federation.
108. Mrs. Moon publicly acquiesced to Rev. Moon’s
irrevocable appointment of Sean Moon as his successor
and the Leader of the Unification Church and Family
Federation effective upon Rev. Moon’s death.
109. After Rev. Moon’s death, there was no one in
the Unification Church or Family Federation with
authority to remove Sean Moon as the Leader of the
organization.
110. Sean Moon has never been removed as Rev.
Moon’s successor and is currently the worldwide
Leader of the Unification Church and Family
Federation.
111. To the extent Defendants assert that Sean
Moon is not Rev. Moon’s successor, such position is an
unauthorized violation of the irrevocable grant of
authority from Rev. Moon.
112. Plaintiff seeks judgment from this Court
declaring that Sean Moon is the properly authorized

App. 74
and appointed successor and worldwide Leader of the
Unification Church and Family Federation. Such a
declaration will conclusively confirm Sean Moon’s
leadership and terminate the controversy between the
parties.
COUNT II – Declaratory Judgment
(28 U.S.C. § 2201)
113. Plaintiff incorporates by reference
paragraphs 1- 112 above as if fully set forth herein.
114. A real and actual dispute, case, and/or
controversy exists between the Parties as to the
validity of the Cheon Il Guk Constitution and the
Supreme Council appointed in connection with such
constitution.
115. The Cheon Il Guk Constitution was not
authorized by Sean Moon and, as such, is an ultra vires
act of Mrs. Moon and her co-conspirators to usurp
authority from Sean Moon.
116. As a result, the Cheon Il Guk Constitution is
a nullity and does not govern the activities of the
Unification Church and/or Family Federation.
117. In connection with this invalid constitution,
Mrs. Moon also created a Supreme Council to
participate in selecting future heads of the Unification
Church.
118. Because the Supreme Council was not formed
or constituted pursuant to any proper authorization,
the Supreme Council is invalid and does not have
authority to govern the conduct or operation of Family
Federation or the Unification Church.

App. 75
119. Plaintiff seeks judgment from this Court
declaring that the Cheon Il Guk Constitution is a legal
nullity, void, without authority, unenforceable and
without effect.
120. Plaintiff seeks judgment from this Court
declaring that the Supreme Council is not properly
authorized and is without legal authority to govern the
conduct or operation of Family Federation or the
Unification Church and should be immediately
disbanded.
121. The requested declarations will conclusively
confirm that the referenced constitution and councils
created thereunder are improper and without authority
to govern Family Federation or the Unification Church.
COUNT III – Breach of Fiduciary Duty
(Against Mrs. Moon)
122. Plaintiff incorporates by reference
paragraphs 1- 121 above as if fully set forth herein.
123. At all relevant times, including the present,
Mrs. Moon has owed the Unification Church, Family
Federation, HSA-UWC (USA), and Sean Moon a
fiduciary duty to act in their best interests by virtue of
her public role as Rev. Moon’s wife, Sean Moon’s
mother and the role she claims as “True Mother” and
her influence over the entities as a result.
124. Sean Moon placed his faith, trust, and
confidence in Mrs. Moon, believing that she would act
in his best interest and in the best interests of the
Unification Church, Family Federation, and HSA-UWC
(USA).

App. 76
125. Mrs. Moon took advantage of Sean Moon’s
trust and used her influence and status within the
Unification Church for her own personal gain.
126. Mrs. Moon has breached her fiduciary duties
in the past, and continues to breach such duties, by,
among other things, the following conduct:
(a) repudiating Rev. Moon’s irrevocable appointment of
Sean Moon as the Leader of the Unification Church
and Family Federation as his successor; (b) wrongfully
holding herself out to be the Leader of the Unification
Church and Family Federation; (c) misrepresenting her
role, authority, and status to members of the
organizations, (d) unlawfully exercising power over the
organizations and their members; (e) upon information
and belief, unlawfully seizing and exercising dominion
over the organization’s property, financial accounts,
and other assets; (f) proposing the unauthorized Cheon
Il Guk Constitution; (g) creating and constituting the
rogue Supreme Council; (h) mismanaging the
organization’s charitable property and assets; (i) using
and/or applying the organizations’ charitable property
and assets in a manner inconsistent with the stated
goals of the organizations and their members; (j) upon
information and belief violating the constructive trust
of these entities by diverting assets for her personal
benefit; (k) preying upon unaware members of the
organization with clear purpose to manipulate the
members making charitable donations; and, (l) creating
dysfunction, conflict, and confusion within the
organizations – all to achieve her objective of usurping
Sean Moon’s authority.

App. 77
127. Mrs. Moon has, and had at all relevant times,
a duty to act in good faith with the best interests of the
Family Federation in mind – and she has not.
128. Mrs. Moon owed Family Federation a duty of
undivided and undiluted loyalty and she violated said
duties by acting in her own self-interest and in a
manner inconsistent with the Family Federation’s
established customs and practices.
129. Mrs. Moon’s breach of fiduciary duties is
ongoing as she continues to purport to be the Leader of
Family Federation and the Unification Church in direct
disobedience, disrespect and disregard of Rev. Moon’s
express appointment of Sean Moon as Leader.
130. Mrs. Moon’s conduct has caused considerable
harm to Sean Moon and to the Family Federation and
Unification – the entities he was chosen by Rev. Moon
to lead.
131. Sean Moon has suffered damages as a result
of such breaches of fiduciary duties in an amount to be
established at trial in excess of $75,000.00.
132. Plaintiff seeks injunctive relief to unwind the
ultra vires acts of Mrs. Moon which have been taken in
breach of her fiduciary duties and to prevent further
harm to the Unification Church and Family Federation
as a result.
COUNT IV – Breach of Fiduciary Duty
(Against All Director Defendants)
133. Plaintiff incorporates by reference
paragraphs 1 - 132 as if fully set forth herein.

App. 78
134. Defendant Ki Hoon Kim was a Director and
the Chairman of the Board of Directors of HSA-UWC
(USA) in 2013. Ki Hoon Kim has aided and abetted,
and continues to aid and abet, Mrs. Moon in her
scheme to take control of HSA-UWC (USA), Family
Federation and the Unification Church, and has
breached his fiduciary duties by refusing to honor and
breaching Rev. Moon’s appointment of Sean Moon as
his successor Leader and agent of HSA-UWC (USA)
and all Family Federation organizations. By
dishonoring and breaching Rev. Moon’s appointment of
the authorized Leader, Ki Hoon Kim has violated the
entity’s original stated purpose and mission.
135. Defendant Peter Kim was a Director of
HSA-UWC (USA) in 2013. Peter Kim has aided and
abetted, and continues to aid and abet, Mrs. Moon in
her scheme to take control of HSA-UWC (USA), Family
Federation and the Unification Church, and has
breached his fiduciary duties by refusing to honor and
breaching Rev. Moon’s appointment of Sean Moon as
his successor Leader and agent of HSA-UWC (USA)
and all Family Federation organizations. By
dishonoring and breaching Rev. Moon’s appointment of
the authorized Leader, Peter Kim has violated the
entity’s original stated purpose and mission.
136. Defendant Chang Shik Yang was a Director
of HSA-UWC (USA) in 2013. Chang Shik Yang has
aided and abetted, and continues to aid and abet, Mrs.
Moon in her scheme to take control of HSA-UWC
(USA), Family Federation and the Unification Church,
and has breached his fiduciary duties by refusing to
honor and breaching Rev. Moon’s appointment of Sean
Moon as his successor Leader and agent of HSA-UWC

App. 79
(USA) and all Family Federation organizations. By
dishonoring and breaching Rev. Moon’s appointment of
the authorized Leader, Chang Shik Yang has violated
the entity’s original stated purpose and mission.
137. Defendant Balcomb was a Director of
HSA-UWC (USA) in 2013. Balcomb has aided and
abetted, and continues to aid and abet, Mrs. Moon in
her scheme to take control of HSA-UWC (USA), Family
Federation and the Unification Church, and has
breached his fiduciary duties by refusing to honor and
breaching Rev. Moon’s appointment of Sean Moon as
his successor Leader and agent of HSA-UWC (USA)
and all Family Federation organizations. By
dishonoring and breaching Rev. Moon’s appointment of
the authorized Leader, Balcomb has violated the
entity’s original stated purpose and mission.
138. Defendant Jenkins was a Director of
HSA-UWC (USA) in 2013. Jenkins has aided and
abetted, and continues to aid and abet, Mrs. Moon in
her scheme to take control of HSA-UWC (USA), Family
Federation and the Unification Church, and has
breached his fiduciary duties by refusing to honor and
breaching Rev. Moon’s appointment of Sean Moon as
his successor Leader and agent of HSA-UWC (USA)
and all Family Federation organizations. By
dishonoring and breaching Rev. Moon’s appointment of
the authorized Leader, Jenkins has violated the
entity’s original stated purpose and mission.
139. Defendant Jones was a Director of HSA-UWC
(USA) in 2013. Jones has aided and abetted, and
continues to aid and abet, Mrs. Moon in her scheme to
take control of HSA-UWC (USA), Family Federation

App. 80
and the Unification Church, and has breached his
fiduciary duties by refusing to honor and breaching
Rev. Moon’s appointment of Sean Moon as his
successor Leader and agent of HSA-UWC (USA) and all
Family Federation organizations. By dishonoring and
breaching Rev. Moon’s appointment of the authorized
Leader, Jones has violated the entity’s original stated
purpose and mission.
140. Defendant Alexa Ward was a Director of
HSA-UWC (USA) in 2013. Ward has aided and abetted,
and continues to aid and abet, Mrs. Moon in her
scheme to take control of HSA-UWC (USA), Family
Federation and the Unification Church, and has
breached her fiduciary duties by refusing to honor and
breaching Rev. Moon’s appointment of Sean Moon as
his successor Leader and agent of HSA-UWC (USA)
and all Family Federation organizations. By
dishonoring and breaching Rev. Moon’s appointment of
the authorized Leader, Ward has violated the entity’s
original stated purpose and mission.
141. Defendants Ki Hoon Kim, Peter Kim, Chang
Yang, Balcomb, Jenkins, Jones and Ward shall be
collectively referred to as the “Director Defendants.”
142. The Director Defendants have, and had at all
relevant times, a duty to act in good faith with the best
interests of HSA-UWC (USA) in mind – and they have
not.
143. The Director Defendants owe, and have owed
at all relevant times, a duty of obedience to act within
the purposes of HSA-UWC (USA) and to ensure that its
mission is pursued.

App. 81
144. In failing to honor Rev. Moon’s proper and
authorized appointment of his successor Leader, Sean
Moon, the Director Defendants have breached their
duty of obedience and have failed to ensure that the
organization’s mission be pursued as defined and
dictated by Rev. Moon.
145. Sean Moon placed his faith, trust, and
confidence in the Director Defendants, believing that
they would act in his best interest and in the best
interests of the Unification Church, Family Federation,
and HSA-UWC (USA).
146. The Defendant Directors took advantage of
Sean Moon’s trust and failed to use their influence and
status within the Unification Church to ensure that the
mission was pursued.
147. The allegiance of the Director Defendants has
been misplaced with their advancement of Mrs. Moon’s
new theology and her exercise of authority over
HSA-UWC (USA), in direct contravention of the only
person with authority to appoint the proper Leader to
succeed him after death – Rev. Moon.
148. The Director Defendants acquiesced to Rev.
Moon’s appointment of Sean Moon as Leader and never
expressed any concern about adhering to his directions
until after Rev. Moon’s death.
149. The Director Defendants owe a duty of loyalty
and a duty of care in their capacities as directors of
HSA-UWC (USA).
150. In dishonoring Rev. Moon’s unambiguous and
irrevocable appointment of Sean Moon as Leader, the

App. 82
Director Defendants have breached their primary
obligation related to the organization’s top executive,
and continue to breach this obligation currently as they
continue to permit, facilitate, and follow the directions
of Mrs. Moon designed to usurp power from the
properly appointed Leader, Sean Moon.
151. The Director Defendants’ conduct was and is
grossly negligent and/or intentionally designed to cause
harm to Sean Moon, as all of these defendants
acknowledged Rev. Moon’s exclusive authority to
appoint his successor, were aware that he had
appointed Sean Moon as Leader prior to his death, and
are disregarding Rev. Moon’s express and unambiguous
grant of authority to Sean Moon in an effort to curry
favor and approval of Mrs. Moon in her effort to usurp
such power.
152. These breaches of fiduciary duties are
ongoing, as the Defendant Directors continue to refuse
to recognize Sean Moon as Leader.
153. Sean Moon has suffered damages as a result
of such breaches of fiduciary duties in an amount to be
established at trial in excess of $75,000.00.
154. Plaintiff seeks injunctive relief to unwind the
ultra vires acts of the Director Defendants which have
been taken in breach of their fiduciary duties and to
prevent further harm to HSA-UWC (USA), the
Unification Church and Family Federation as a result.

App. 83
COUNT V – Tortious Interference with
Business Relationship
(Against All Defendants)
155. Plaintiff incorporates by reference
paragraphs 1- 154 above as if fully set forth herein.
156. Defendants have orchestrated a harmful
campaign with the intent to improperly interfere with
and damage Sean Moon’s present and prospective
business relations with Family Federation.
157. Rev. Moon had authority to act on behalf of
Family Federation as principal in appointing Sean
Moon to be Family Federation’s agent to act on its
behalf.
158. Rev. Moon appointed Sean Moon as Family
Federation’s agent to act on its behalf.
159. This agency relationship created a present
and continuing business relationship between Family
Federation and Sean Moon.
160. As part of his newly appointed role, Sean
Moon was entitled to, and expected, additional income
by way of salary, as well as various assets, such as
crowns and robes which were part of the required attire
in his commencement of duties.
161. Defendants are and have been aware of the
agency relationship between Family Federation and
Sean Moon which was publicity manifested in the
coronation ceremonies conducted in 2009 and in Rev.
Moon’s written proclamation issued in June, 2010.

App. 84
162. Defendants know, and knew at all relevant
times, that Sean Moon was appointed by Rev. Moon to
lead Family Federation and the Unification Church.
163. Despite this knowledge, Defendants
intentionally interfered with, and continue to
intentionally interfere with, Sean Moon’s current and
prospective business relationship with Family
Federation.
164. Defendants continue to interfere with and
disrupt Sean Moon’s current and prospective business
relations by refusing to acknowledge Sean Moon’s
authority to act as Leader and agent of Family
Federation.
165. Defendants used and continue to use
dishonest, unfair and/or improper means of interfering
with Sean Moon’s authority as successor and agent and
his business relationship with Family Federation.
166. Defendants engaged and continue to engage
in these acts for the sole purpose of harming Sean
Moon by depriving him of any and all rights he was
entitled to, and expected, as part of his business
relationship with Family Federation as its Leader and
agent.
167. Much of this activity has taken place in New
York in connection with the activities of HSA-UWC
(USA) and at events held at The New Yorker Hotel,
East Garden, and/or other locations within in New
York, all of which continue to interfere with Sean
Moon’s existing and prospective business relationships.

App. 85
168. Defendants’ conduct has injured and
continues to harm Sean Moon’s business relationship
with Family Federation and interfered with and
continues to interfere with his ability to lead Family
Federation as intended by Rev. Moon.
169. Defendants’ tortious interference with Sean
Moon’s existing and prospective business relationships
is ongoing as they continue to interfere with Sean
Moon’s rightful authority to act as Leader of Family
Federation and the Unification Church.
170. Sean Moon has suffered damages as a result
of such tortious interference in an amount to be
established at trial in excess of $75,000.00.
COUNT VI – Breach of Agency Agreement
(Against Mrs. Moon and Family Federation)
171. Plaintiff incorporates by reference
paragraphs 1 - 170 above as if fully set forth herein.
172. Family Federation entered into an agency
agreement with Sean Moon in 2009 when Rev. Moon
irrevocably appointed Sean Moon as Family
Federation’s agent.
173. Acting as Family Federation’s principal, Rev.
Moon further ratified such oral agency agreement in
writing on June 5, 2010.
174. At all relevant times, Rev. Moon had
authority to act on behalf of Family Federation as
principal to enter into an agency agreement with Sean
Moon.

App. 86
175. Acting as Family Federation’s principal, Rev.
Moon intended to and did grant Sean Moon actual
authority to act as Family Federation’s agent.
176. In appointing Sean Moon as Family
Federation’s agent, Rev. Moon made it clear that Sean
Moon was authorized to exercise full control and
authority over Family Federation to the same extent as
had been exercised by Rev. Moon previously in
governing Family Federation.
177. Sean Moon’s actual authority to act as Family
Federation’s agent was both express and implied.
178. Sean Moon accepted Rev.
appointment as Family Federation’s agent.

Moon’s

179. Sean Moon acted as Family Federation’s
agent on multiple occasions after entering into the
agency agreement, including performing marriage
blessing ceremonies.
180. Mrs. Moon was aware of Sean Moon’s acts
taken as an agent of Family Federation prior to Rev.
Moon’s death and never objected to and instead ratified
all such actions until Rev. Moon died.
181. Family Federation has a continuing
obligation under the agency agreement to acknowledge
Sean Moon’s right to act as its agent.
182. The agency agreement between Family
Federation and Sean Moon was irrevocable under the
terms dictated by Rev. Moon, accepted by Sean Moon,
and acknowledged by Mrs. Moon.

App. 87
183. Mrs. Moon lacks the authority to terminate
Family Federation’s agency agreement with Sean
Moon.
184. To the extent any Defendant now claims that
the agency agreement with Sean Moon can be, or has
been, terminated, such termination of the agency
relationship is wrongful.
185. Further, any such wrongful termination of
Sean Moon’s agency is a breach of the agency
agreement.
186. Family Federation’s breach of this agency
agreement at the direction of Mrs. Moon is ongoing as
they continue to refuse to acknowledge Sean Moon’s
authority to act as agent for Family Federation.
187. Family Federation and Mrs. Moon have
engaged in activities in New York independently and
through their wholly-controlled New York entity
HSA-UWC (USA) related to their ongoing breach of
this agency agreement.
188. Sean Moon has suffered damages as a result
of such breach in an amount to be established at trial
in excess of $75,000.00.
189. Sean Moon seeks specific performance of
Family Federation’s continuing obligations under the
agency agreement.

App. 88
COUNT VII – Breach of Fiduciary Duties,
Unjust Enrichment, and Constructive Trust
(Against All Defendants)
190. Plaintiff incorporates by reference
paragraphs 1 - 189 above as if fully set forth herein.
191. As Leader of the Unification Church and
Family Federation, Sean Moon is obligated to ensure
that the organization stays true to its mission and that
all property and assets are used in furtherance of that
mission.
192. As Leader of the Unification Church and
Family Federation, Sean Moon has an interest in
preserving the organization’s property and assets.
193. Rev. Moon made promises to Sean Moon in
connection with his appointment of Sean Moon as Rev.
Moon’s successor Leader, that Sean Moon would have
authority to govern Family Federation and the
Unification Church and to control the entities’ assets
for the benefit of the church and its mission.
194. When Mrs. Moon with the aid of the Director
Defendants orchestrated the coup to remove Sean
Moon as the rightful heir, successor, and Leader of the
Unification Church and from his positions of authority
in the Unification Church, Family Federation and
HSA-UWC, Mrs. Moon and the Director Defendants
became trustees of those assets wrongfully removed
from Sean Moon’s control.
195. While controlling the entities’ assets, Mrs.
Moon and Director Defendants were obligated to hold
and use the assets for the benefit of the organizations.

App. 89
Despite these obligations, Mrs. Moon and the Director
Defendants did not act in the best interest of the
organizations. Family Federation, Unification Church,
and Sean Moon have been harmed by the wrongful
conduct.
196. There is a confidential and/or fiduciary
relationship between Sean Moon and his mother Mrs.
Moon.
197. Sean Moon has a confidential and/or fiduciary
relationship with Director Defendants by virtue of the
practices, procedures and customs of Family
Federation and the Unification Church.
198. To the extent any individual Defendant has:
(a) mismanaged the organizations’ charitable property
and assets; (b) used and/or applied the organizations’
charitable property and assets in a manner
inconsistent with the stated goals of the organizations
and their members; or (c) violated the trust of these
organizations and entities by diverting assets for his or
her personal benefit, such assets are subject to a
constructive trust for the benefit of HSA-UWC (USA),
Family Federation and the Unification Church.
199. Relying on influence over the organizations,
certain Defendants have improperly directed that
property and assets be transferred in a manner
inconsistent with the goals of the Unification Church
and Family Federation, and HSA-UWC (USA) and
their members.
200.

Plaintiff has no adequate remedy at law.

App. 90
201. Permitting Defendants to retain control over
property and assets belonging to the Unification
Church, Family Federation and HSA-UWC (USA) and
to continue to use and transfer said property and assets
without authority is unjust and warrants the
imposition of a constructive trust whereby all property
and assets can be returned.
202. Equity requires, and Plaintiff requests, the
imposition of a constructive trust.
203. Further, in connection with this constructive
trust, Defendants owe Sean Moon certain fiduciary
duties to preserve, protect and maintain the assets over
which they hold control in their capacity as
constructive trustees.
204. Defendants have breached these fiduciary
duties to Sean Moon, and caused him monetary
damages.
205.

Plaintiff also seeks punitive damages.

COUNT VIII- Defamation
(Against Mrs. Moon and Family Federation)
206. Plaintiff incorporates by reference
paragraphs 1 - 205 above as if fully set forth herein.
207. In refusing to acknowledge Sean Moon’s
authority in the Unification Church and Family
Federation as Rev. Moon’s successor Leader, Mrs.
Moon and Family Federation have made false
statements regarding Sean Moon.
208. Commencing in 2015, Defendants Family
Federation and Mrs. Moon published false and

App. 91
defamatory statements to third parties regarding Sean
Moon which state that he is not the Leader of Family
Federation and the Unification Church and challenge
his authority as granted by Rev. Moon. A copy of this
statement is attached as Exhibit 2.
209. These defamatory statements have continued
with a recent false statement being published by
Family Federation and Mrs. Moon in February, 2018,
which again disputes Sean Moon’s proper authority to
lead the Family Federation and Unification Church as
the Leader. A copy of this statement is attached as
Exhibit 3.
210. Mrs. Moon and Family Federation published
these false statements to third parties in press releases
issued by Mrs. Moon and/or Family Federation to
members of the media and members of Family
Federation and the Unification Church worldwide,
without privilege or authorization. Many of these press
releases were published from New York and/or to
individuals and/or entities within New York.
211. Defendants Mrs. Moon and Family
Federation made such defamatory statements
regarding Sean Moon in such a nature that it can be
presumed as a matter of law that they intended to
denigrate or disgrace Sean Moon and to hold him up to
public hatred, contempt or scorn.
212. Defendants Mrs. Moon and Family
Federation made such false statements with actual
malice and with an intent to injure Sean Moon’s
reputation and interfere with his ability to perform his
leadership duties for the Unification Church.

App. 92
213. Defendants Mrs. Moon and Family
Federation made such false statements with a reckless
disregard for their falsity and/or or without using
reasonable care as to the truth or falsity of such
statements.
214. As a direct and proximate cause of such
defamatory statements, Sean Moon has suffered
damages in an amount to be established at trial in
excess of $75,000.00.
COUNT IX – RICO Violation Under
18 U.S.C. § 1962(b)
(Against All Defendants)
215. Plaintiff incorporates by reference
paragraphs 1 - 214 above as if fully set forth herein.
216. Each Defendant is a person as defined in 18
U.S.C. § 1961(3).
217. Family Federation is an enterprise as defined
in 18 U.S.C. § 1961(4).
218. The activities of Family Federation affect
interstate and foreign commerce.
219. Unification Church is an enterprise as
defined in 18 U.S.C. § 1961(4)
220. The activities of Unification Church affect
interstate and foreign commerce.
221. Defendants acquired and maintained an
interest in and control of Family Federation and
Unification Church through the following acts of
racketeering activity:

App. 93
18 U.S.C. § 1341 (Mail Fraud)
a. Defendants knowingly devised or intended to
devise a scheme or artifice to defraud Plaintiff
and members of the Unification Church and
Family Federation.
b. The object of Defendants’ fraudulent scheme was
to steal control of the Unification Church and
Family Federation from Sean Moon and to use
the money and property belonging to the
Unification Church and Family Federation,
including crowns, robes and religious writings of
Rev. Moon which were given to Sean Mon as
Rev. Moon’s successor Leader, for their own
personal benefit.
c. To execute their fraudulent scheme, Defendants
caused documents to be sent and delivered
through the United States mail, to followers of
the Unification Church and Family Federation
falsely stating that Sean Moon was not the
Leader, each of which constitutes a separate
violation of 18 U.S.C. § 1341 and a separate act
of racketeering activity.
18 U.S.C. § 1343 (Wire Fraud)
d. Defendants knowingly devised or intended to
devise a scheme or artifice to defraud Plaintiff
and members of the Unification Church and
Family Federation.
e. The object of Defendants’ fraudulent scheme was
to steal control of the Unification Church and
Family Federation from Sean Moon and to use

App. 94
the money and property belonging to the
Unification Church and Family Federation,
including crowns, robes and religious writings of
Rev. Moon which were given to Sean Moon as
Rev. Moon’s successor Leader, for their own
personal benefit.
f. To execute their fraudulent scheme, Defendants
caused numerous writings, signs, signals,
pictures, or sounds to be transmitted by means
of wire, radio, or television communications to
followers of the Unification Church and Family
Federation falsely stating that Sean Moon was
not the Leader, each of which constitutes a
separate violation of 18 U.S.C. § 1343 and a
separate act of racketeering activity.
18 U.S.C. § 1956 (Laundering of Monetary
Instruments)
g. Defendants used the mail fraud and wire fraud
schemes detailed above to steal control of the
Unification Church and Family Federation from
Sean Moon and to obtain control over the money
and property belonging to the Unification
Church and Family Federation.
h. Defendants knowingly engaged or attempted to
engage in numerous monetary transactions
using the money and property belonging to the
Unification Church and Family Federation, each
of which constitutes a separate violation of 18
U.S.C. § 1957 and a separate act of racketeering
activity.

App. 95
i. Each of the monetary transactions involves
money or property worth more than $10,000 and
derived from Defendants’ mail fraud and wire
fraud schemes to obtain control over the money
and property belonging to the Unification
Church and Family Federation.
222. Each Defendant participated in at least two
acts of racketeering activity.
223. The above acts of racketeering activity
constitute a pattern of racketeering activity because
there are at least two acts of racketeering activity, one
of which occurred after the effective date of Title 18,
Chapter 96 of the United States Code18 U.S.C. § 1961,
et seq. and the last of which occurred within ten years
after the commission of a prior act of racketeering
activity.
224. As a direct and proximate result of the
Defendants’ violation of 18 U.S.C. § 1962(b), Plaintiff
suffered damages in excess of $75,000, the precise
amount to be determined at trial.
225. Pursuant to 18 U.S.C. § 1964(c), Plaintiff is
entitled to recover threefold damages, plus costs and
attorneys’ fees from Defendants.
COUNT X – Conspiracy to Commit RICO
Violations
(Against All Defendants)
226. Plaintiff incorporates by reference
paragraphs 1 - 225 above as if fully set forth herein.
227. Each Defendant is a person as defined in 18
U.S.C. § 1961(3).

App. 96
228. Family Federation is an enterprise as defined
in 18 U.S.C. § 1961(4).
229. The activities of Family Federation affect
interstate and foreign commerce.
230. Unification Church is an enterprise as
defined in 18 U.S.C. § 1961(4)
231. The activities of Unification Church affect
interstate and foreign commerce.
232. In violation of 18 U.S.C. § 1962(d), the
Defendants knowingly and intentionally conspired with
each other to violate 18 U.S.C. § 1962(b), that is, to
acquire and maintain an interest in and control of
Family Federation and Unification Church through a
pattern of racketeering activity involving multiple acts
of racketeering activity as set forth in paragraph 51.
233. It was part of the conspiracy that the
Defendants agreed that each conspirator would commit
at least two acts of racketeering activity in furtherance
of the conspiracy.
234. The object of such conspiracy was to obtain
money or property.
235. Each Defendant received financial benefit
from their involvement in the conspiracy.
236. As a direct and proximate result of the
Defendants’ violation of 18 U.S.C. § 1962(d), Plaintiff
suffered damages in excess of $75,000, the precise
amount to be determined at trial.

App. 97
237. Pursuant to 18 U.S.C. § 1964(c), Plaintiff is
entitled to recover threefold damages, plus costs and
attorneys’ fees from Defendants.
Allegations Common to Following
State Law Claims
238. Family Federation and HSA-UWC (USA) are
not-for-profit corporations which are subject to all New
York state laws governing and concerning not-for-profit
entities.
239. The organizations’ directors, officers, key
persons, and all persons asserting influence or power
over the organizations are subject to laws concerning
and governing their conduct, which is codified in New
York not-for-profit law.
240. Mrs. Moon wields significant influence over
the organizations.
241. Given her influence, Mrs. Moon is required to
act in the best interests of the organizations—and has
instead put her own personal interest before the
organizations’ interests.
242. The organizations’ senior leadership has often
acted out of fear of Mrs. Moon and in a sycophantic
manner towards Mrs. Moon.
243. Mrs. Moon improperly used her influence and
conspired with Defendants and coerced others to act on
her behalf rather than on behalf of the organizations.
244. When Sean Moon properly challenged and
reported the misdeeds of senior leaders of Family
Federation and the Unification Church as a

App. 98
whistleblower, Mrs. Moon and her co-conspirators
harassed, intimidated and retaliated against him,
including removing him as International President of
Family Federation.
245. Since removing Sean Moon as International
President in retaliation for his whistleblower
disclosures, Mrs. Moon and her co-conspirators have
continued to make every effort to prevent Sean Moon
from functioning as Leader of Family Federation and
the Unification Church as he was properly appointed to
do by Rev. Moon.
246. On information and belief, Mrs. Moon also
directed the Family Federation and HSA-UWC to enter
into a series of financial transactions that benefitted
her and her co-conspirators and that were in direct
conflict with the organizations’ missions and purpose.
247. Mrs. Moon and her co-conspirators’ conduct
violated New York state law.
248. Under New York law “[n]o corporation shall
enter into any related party transaction unless the
transaction is determined by the board, or an
authorized committee thereof, to be fair, reasonable
and in the corporation’s best interest at the time of
such determination. Any director, officer, or key person
who has an interest in a related party transaction shall
disclose in good faith to the board, or an authorized
committee thereof, the material facts concerning such
interest.” N.Y. Not-for-Profit Corp. Law § 715(a).
249. In addition, a related party cannot
participate in deliberations or voting regarding a

App. 99
related party transaction in which he or she has an
interest. N.Y. Not-for-Profit Corp. Law § 715(h).
250. On information and belief, Mrs. Moon
directed the organizations to engage in financial
transactions in which she had significant financial
interest and in which she was motivated by personal
gain.
251. Mrs. Moon failed to properly disclose her
interests.
252. Mrs. Moon was motivated by personal
financial gain and acted in her own self-interest.
253. Mrs. Moon directed directors, officers, and
influential persons within Family Federation and
HSA-UWC to act in accordance with her wishes and
against the organizations’ best interests.
254. Due to the conduct of Mrs. Moon and her
co-conspirators, the organizations (i) failed to consider
alternative transactions; (ii) failed to document proper
bases to engage in the transactions; and (iii) failed to
properly account for the improper transactions.
255. Mrs. Moon and co-conspirators should be
required to return or replace any property or other
assets lost by the organizations as a result of the
improper transactions.
Count XI - Violation of Whistleblower
Protections
(Against All Defendants)
256. Plaintiff incorporates by reference
paragraphs 1 - 255 above as if fully set forth herein.

App. 100
257. New York law requires that a not-for-profit
corporation adopt and comply with a whistleblower
policy to protect persons who report suspected
improper conduct from retaliation, harassment and
intimidation. N.Y. Not-for-Profit Corp. Law § 715-b (a).
258. Both Family Federation and HSA-UWC
(USA) are required to comply with this statute, because
both entities are authorized to conduct and/or do
conduct activities in the state of New York. N.Y.
Not-for-Profit Corp. Law § 103(a).
259. Sean Moon was an employee of both
HSA-UWC (USA) and Family Federation. Sean Moon
also served as a Director of HSA-UWC (USA) and as
Leader over both entities.
260. In January, 2015, Sean Moon exposed certain
misdeeds of top management members of the
Unification Church and Family Federation.
Specifically, Sean Moon disclosed that these leaders
were benefitting from excessive salaries and benefits at
the expense of the Unification Church and Family
Federation. He further asserted that these leaders
were dishonoring the directions and teachings of Rev.
Moon to curry favor with Mrs. Moon and preserve their
resulting political power and compensation.
261. These leaders approached Sean Moon and
tried to intimidate him by asking him to go along with
Mrs. Moon’s exercise of authority in violation of Rev.
Moon’s appointment and to facilitate her modifications
of church doctrines. They wanted Sean Moon to stay
silent as to the matters he was exposing and speaking
publicly about until Mrs. Moon’s death, with the

App. 101
promise that after her death Sean Moon would be
restored to his proper position of Leader and able to
correct any of Mrs. Moon’s missteps.
262. Sean Moon viewed this as an improper
request that he dishonor Rev. Moon’s directives and
betray his mother after her death. He refused to back
down and continued to function as a whistleblower
exposing the improper conduct of those claiming power
within Family Federation and the Unification Church.
He also asserted and threatened to exercise his power
as Leader to remove any management members who
failed to conduct themselves lawfully under the
church’s practices, procedures and policies.
263. In direct retaliation and in an effort to
intimidate and harass him, on February 26, 2015, Sean
Moon was purportedly suspended from his role as the
International President of Family Federation.
264. Since stealing control of the Unification
Church and Family Federation from Sean Moon, Mrs.
Moon, with the assistance of Defendants, has used the
money and property belonging to the Unification
Church and Family Federation for her own personal
benefit, including taking possession, custody and
control of the crowns and religious writings of Rev.
Moon which were given to Sean Moon as Rev. Moon’s
successor Leader.
265.
law.

This conduct is a violation of New York state

266. As a direct and proximate cause of such
retaliation, harassment and intimidation in violation of
New York state law, Sean Moon has suffered damages

App. 102
in an amount to be established at trial in excess of
$75,000.00.
267. In addition to damages, Sean Moon is entitled
to an order reinstating him to his prior positions of
leadership.
Count XII - Accounting
(Against Mrs. Moon and the Director
Defendants)
268. Plaintiff incorporates by reference
paragraphs 1 - 267 above as if fully set forth herein.
269. Directors, officers, and key persons of a
corporation are required to act in good faith, in the best
interest of the corporations they serve and with
undivided loyalty—Mrs. Moon and her co-conspirators,
the Director Defendants, have failed in all respects.
270. Mrs. Moon and the Director Defendants have
violated their duties in the management and
disposition of corporate assets.
271. Upon information and belief, Mrs. Moon and
the Director Defendants have unlawfully seized and
exercised dominion over Family Federation and
HSA-UWC (USA)’s property, financial accounts, and
other assets.
272. Upon information and belief, Mrs. Moon and
her co-conspirators have mismanaged the
organizations’ charitable property and assets—using
and/or applying the organizations’ charitable property
and assets in a manner inconsistent with the stated
goals of the organizations and their members.

App. 103
273. Upon information and belief, Mrs. Moon, with
the help of the Director Defendants, has diverted assets
belonging to Family Federation and HSA-UWC (USA)
for her own personal benefit acting in direct conflict
with the interests of the organizations.
274. As Leader of the Unification Church and
Family Federation, Sean Moon has an interest in
preservation of the organizations’ property and assets.
275. Plaintiff formally requests that Mrs. Moon
and Director Defendants be required to account for
their conduct and provide a full accounting related to
HSA-UWC (USA) and Family Federation.
REQUEST FOR RELIEF
WHEREFORE, Plaintiff respectfully requests that
this Court enter a Judgment and Order in his favor
and against Defendants as follows:
A.
Declaring that Sean Moon is the successor to
Rev. Moon and Leader of Family Federation and the
Unification Church;
B.
Declaring that the Cheon Il Guk Constitution
was not validly authorized by Family Federation and/or
the Unification Church and is a legal nullity, void,
without authority, unenforceable and without effect;
C.
Declaring that the Supreme Council is not
properly authorized by Family Federation and/or the
Unification Church and is without legal authority to
govern the conduct or operation of Family Federation
and/or the Unification Church and should be
immediately disbanded;

App. 104
D.
Enjoining Defendants and any other third
parties from interfering with Sean Moon’s exercise of
authority in the Family Federation as the
organization’s Leader;
E.
Ordering specific performance of Family
Federation’s continuing obligations under the agency
agreement;
F.
Awarding damages for Defendants’ breach of
fiduciary duties, tortious interference with agency,
breach of agency agreement and defamation;
G.
Imposing a constructive trust on any and all
property and assets belonging to the Unification
Church and Family Federation that is wrongfully in
the hands or control of Defendants.
H.
Awarding damages for Sean Moon’s improper
removal in retaliation for his whistleblower disclosures
and requiring his reinstatement to his proper position;
I.
Requiring all property and assets being
improperly held to be returned to the Unification
Church and Family Federation and its rightful Leader
so the property and assets can be used for the benefit
of the organization and its members worldwide;
J.
Surcharging all Defendants for diversion and
dissipation of Unification Church and Family
Federation property and assets;
K.
Awarding treble damages and attorneys’ fees
for Defendants’ RICO violations;
L.

Punitive damages;

App. 105
M.

Statutory damages;

N.
Order an accounting of any and all assets
subject to the constructive trust and directing all
individual Defendants to provide a true and accurate
account for any and all activities involving or
concerning the finances, transfer, and/or distribution of
assets of HSA-UWC (USA), Family Federation, and the
Unification Church during the time periods referenced
herein; and
O.
Granting to Plaintiff such other and further
relief as the Court may deem just, proper and equitable
under the circumstances.
Date: June 13, 2019
BY:
/s/Jonathan G. Polak
Jonathan G. Polak (IN. No. 21954-49)
Admitted Pro Hac Vice
TAFT STETTINIUS & HOLLISTER LLP
One Indiana Square, Suite 3500
Indianapolis, Indiana 46204
Phone: (317) 713-350
Fax: (317 713-3699
jpolak@taftlaw.com

Philip Kouyoumdjian (2816882)
TAFT STETTINIUS & HOLLISTER LLP
14 Penn Plaza, Suite 2102
New York, NY 10125
Tel: (917) 534-7180

App. 106
Fax: (312) 966-8555
pkouyoumdjian@taftlaw.com
Attorneys for Plaintiff

CERTIFICATE OF SERVICE
I hereby certify that on June 13, 2019, a copy of the
foregoing was filed electronically. Service of this filing
will be made on all ECF-registered counsel by
operation of the court’s electronic filing system. Parties
may access this filing through the court’s system.
/s/Jonathan G. Polak

